APPENDICES

1a
APPENDIX A

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
_____________________
AMANDA N. REICH; ELISE
DAVIDSON, Successor
Administratrix of Estate of Joshua
Steven Blough,
Plaintiffs-Appellants,

No. 18-6296

v.
CITY OF ELIZABETHTOWN,
KENTUCKY; MATTHEW
MCMILLEN; SCOT
RICHARDSON,
Defendants-Appellees.

Appeal from the United States District Court
for the Western District of Kentucky at Louisville.
No. 3:16-cv-00429—Rebecca Grady Jennings,
District Judge.
Argued: July 31, 2019
Decided and Filed: December 19, 2019
Before: MOORE, COOK, and THAPAR, Circuit
Judges.
__________________
COUNSEL
ARGUED:
WHATLEY

Robert L. Astorino, Jr., STEIN
ATTORNEYS,
PLLC,
Louisville,

2a
Kentucky, for Appellants. Jason B. Bell, BELL, HESS
& VAN ZANT, PLC, Elizabethtown, Kentucky, for
Appellees. ON BRIEF: Robert L. Astorino, Jr.,
Matthew W. Stein, STEIN WHATLEY ATTORNEYS,
PLLC, Louisville, Kentucky, for Appellants. Jason B.
Bell, BELL, HESS & VAN ZANT, PLC,
Elizabethtown,
Kentucky,
D.
Dee
Shaw,
Elizabethtown, Kentucky, for Appellees.
COOK, J., delivered the opinion of the court in
which THAPAR, J., joined. MOORE, J. (pp. 19–29),
delivered a separate dissenting opinion.

3a
OPINION
COOK, Circuit Judge. En route to a mental health
treatment facility, Joshua Blough got out of his
fiancée’s vehicle holding his knife, walked through
traffic, and wandered into a residential neighborhood.
When he ignored his fiancée’s repeated pleas to get
back in the car, police officers intervened. After he
refused commands to drop the knife, the officers fired
three shots, killing Blough. His fiancée and his estate
sued under federal and state law, claiming that the
officers used excessive force by shooting Blough.
Because the officers’ use of deadly force was
objectively reasonable under the Fourth Amendment,
we hold that qualified immunity shields the officers
and AFFIRM the grant of summary judgment.
I.
On July 6, 2015, Joshua Blough sought help at a
Communicare mental health facility in Leitchfield,
Kentucky. During his evaluation, he reported having
auditory hallucinations (thinking television shows
were talking to him) and paranoia. He told evaluating
staff that he’d stopped taking his prescribed
schizophrenia medication about four months earlier.
Blough also reported three suicide attempts in the
past two weeks, most recently five days earlier, but
denied current suicidal ideation. A Communicare
therapist recommended psychiatric hospitalization
and arranged for Blough to voluntarily admit himself
at a mental health facility nearby the next day.
In the morning, Blough’s fiancée, Amanda Reich,
began the drive to the facility. Blough sat in the
passenger seat and Reich, who had accompanied
Blough to Communicare the previous day, took the
wheel. About halfway into the trip, Blough saw a

4a
Kentucky State Police vehicle stopped on the side of
the road. High on methamphetamine, Blough became
“really upset” and started hallucinating, remarking
that “there were police officers everywhere.” Hoping a
different road might calm Blough, Reich exited to take
the highway.
When they later stopped at a traffic light, Blough
pulled out his three-inch knife, opened the blade, and
jumped out of the car. Though they had not seen any
other police officers, Blough climbed out and told
Reich, “I’m not gonna let anybody hurt you but I’m not
gonna let anybody hurt me either.” Reich replied that
there were no police around, and that Blough needed
to get back in the car so he could get help. Blough
complied but left the knife—blade open and locked—
on his lap.
When they stopped at another red light, without a
word, Blough got out of the car with the knife. And
this time he would not get back in. Blough took off on
foot through traffic and walked to an empty field
behind a residential neighborhood. Reich said that “it
was like when he was walking he wasn’t even
acknowledging any cars coming by or nothing.”
Unable to “do anything with him,” Reich dialed 911.
She worried that, because Blough had a knife,
“somebody else would get the wrong idea and call in
thinking that [Blough] was a threat to someone and
that he would end up getting shot.”
Reich told the dispatcher that Blough had
“schizophrenia real bad,” had not been taking his
medication, had a knife, and thought “everybody [was]
out to get him.” The dispatcher relayed that
information by radio to the Elizabethtown Police
Department; Officer McMillen heard the message and
responded. The dispatcher then connected Reich
directly to Officer McMillen, who arrived at the scene

5a
“three or four minutes” later to conduct a welfare
check. During that short window of time, Reich herself
got out of the car and asked Blough to get back in and
put down the knife, but he refused.
With Officer McMillen now at the scene, Reich
told him the information she shared with the
dispatcher. Reich let the officer know that she thought
it would be better if she “could handle it on [her] own,”
that Blough did not like the police, and that a
Kentucky State Police officer shot him a few years
ago. Officer McMillen agreed to let Reich try to get
Blough back in the car and explained that, given
Blough’s paranoid state, “he could perceive [officers]
as a threat and act upon it, especially if he’s armed
with a knife.” He told Reich that police were “not going
to actively search for [Blough]” and returned to his
car.
Once there, Officer McMillen advised dispatch of
his discussion, including that officers should not
actively look for Blough because “if [they] . . . did find
him, there was a potential for it to go bad.” He then
drove away to make sure Blough had not entered the
roadway. Around that time, Officer Richardson, from
his car in a church parking lot, saw Blough—now in
the neighborhood—“acting bizarre.” He had his shirt
off, pacing between houses, carrying something in his
hand. Officer Richardson radioed Officer McMillen,
who informed him that Blough had a knife. Officer
McMillen then circled back toward the scene.
Now alone, Reich pulled into the subdivision and
set out on foot to go reason with Blough. As she
approached him, however, she realized that he “must
have seen the police . . . talking to [her]” and “thought
that [she] was involved in trying to get him hurt, too.”
He again refused to return to the vehicle or put the
knife down. Reich walked back to her car “to pull it up

6a
and park,” and saw the police coming down the road.
When the officers pulled up (no lights or sirens), Reich
requested another chance to get Blough to put down
the knife—neither officer responded, but neither tried
to stop her. Blough then began walking toward the
group.
Reich approached Blough for a second time, now
in a neighbor’s front yard. She asked him the same
two questions for “probably” the tenth time, and he
gave the same answer to each: No. At that point, the
officers had stepped out of their cars and “were just
standing by” near their vehicles, which were parked
on the neighborhood street in front of single-family
homes. They then “told [Reich] to get out of the way.”
According to Reich, the officers next ordered
Blough “to put the knife down” in a “very firm, loud
tone.” In response, Blough “took a step forward toward
them” with his knife raised in his right hand in a
stabbing position. And—again according to Reich—
before or after this step, Blough told one of the officers,
“you’re gonna have to kill me mother ****er.” Reich
says Blough then “turned around” and took “one or
two steps” before the officers fired.
Both officers and three independent eyewitnesses
disagree that Blough turned around. They all say
that, at the time the officers fired, Blough was walking
at a fast pace toward Officer Richardson; all but one
stated that Blough had the knife in his right hand. See
R. 61-14, Richardson Depo., PageID 4600; R. 61-11,
McMillen Depo., PageID 2372, 2384–85; R. 55-11,
PageID 823; R. 55-14, PageID 829; R. 55-17, PageID
839. 1 As for Reich, she testified that she did not
One of those eyewitnesses wrote in her initial statement for
the Kentucky State Police that she thought “[Blough] was going
to try to get away.” R. 61-10, PageID 2262. But her affidavit says

1

7a
remember whether Blough “ever raised his arm with
his knife in it towards the officers.”
Officer Richardson fired two shots in rapid
succession and Officer McMillen fired once; two of
those three shots hit Blough, who fell face down in the
grass. Both officers administered first aid, but Blough
died shortly after.
Reich and the administratrix of Blough’s estate
brought this suit under 42 U.S.C. § 1983 against the
City of Elizabethtown and both officers, 2 alleging
Fourth and Eighth Amendment violations, along with
various state tort claims. After discovery concluded in
February 2018, the City and officers moved for
summary judgment. Plaintiffs filed a response that
included an affidavit from Reich attesting—unlike her
deposition—to the distance between Blough and the
officers when they fired. The district court
disregarded the affidavit and granted summary
judgment for defendants, holding that qualified
immunity shielded them from liability. This appeal
followed.
II.
We review de novo a district court’s grant of
summary judgment on qualified immunity grounds.
Burgess v. Fischer, 735 F.3d 462, 471 (6th Cir. 2013).
A court must grant summary judgment if the moving
party “shows that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a).
the opposite. R. 55-11, PageID 823 (“[Blough] was still moving
toward the officers and was close to them when they drew their
guns and shot him.”).
2
This suit also named Tracy Shiller, Chief of the
Elizabethtown Police Department, as a defendant. But the
parties later agreed to dismiss all claims against him.

8a
When the movant carries this burden, the burden
shifts to the opposing party, who must come forward
with “specific facts showing that there is a genuine
issue for trial.” Haddad v. Gregg, 910 F.3d 237, 243
(6th Cir. 2018). No genuine issue exists when “the
record taken as a whole could not lead a rational trier
of fact to find for the non-moving party.” Matsushita
Elec. Indus. Co., Ltd. v. Zenith Radio Corp., 475 U.S.
574, 586 (1986). Courts “must construe the evidence
and draw all reasonable inferences in favor of the
nonmoving party.” Hawkins v. Anheuser-Busch, Inc.,
517 F.3d 321, 332 (6th Cir. 2008).
III.
A. Reich’s Affidavit
We start with Reich’s affidavit. We review a
court’s “refusal to consider an affidavit filed as an
appendix to a motion in opposition of a motion for
summary judgment for an abuse of discretion.” Myers
v. Huron Cty., 307 F. App’x 917, 918 (6th Cir. 2009);
Briggs v. Potter, 463 F.3d 507, 511 (6th Cir. 2006). The
district court declined to consider Reich’s affidavit,
filed with her response to the defendants’ motion for
summary judgment (more than two months after
discovery closed), because it contradicted her sworn
deposition testimony. Reich sees it differently,
arguing her affidavit actually closely mirrors her
deposition testimony and simply clarifies issues that
she could not answer precisely. On this record, we
cannot say that the district court abused its discretion
in assessing the two as contradictory.
“A party may not create a factual issue by filing
an affidavit, after a motion for summary judgment has
been made, which contradicts her earlier deposition
testimony.” Reid v. Sears, Roebuck & Co., 790 F.2d
453, 460 (6th Cir. 1986). At summary judgment, to
evaluate a post-deposition affidavit’s admissibility, we

9a
ask first whether the affidavit “directly contradicts
the nonmoving party’s prior sworn testimony.” Aerel,
S.R.L. v. PCC Airfoils, L.L.C., 448 F.3d 899, 908 (6th
Cir. 2006). If so, absent a persuasive justification for
the contradiction, the court should not consider the
affidavit. Id. But if no direct contradiction exists, “the
district court should not strike or disregard th[e]
affidavit unless the court determines that the
affidavit ‘constitutes an attempt to create a sham fact
issue.’” Id. (quoting Franks v. Nimmo, 796 F.2d 1230,
1237 (10th Cir. 1986)).
Our precedents suggest “a relatively narrow
definition of contradiction.” Briggs, 463 F.3d at 513. If
a party “was not directly questioned about an issue,”
a later affidavit on that issue simply “fills a gap left
open by the moving party.” Aerel, 448 F.3d at 907.
After all, deponents have no obligation to volunteer
information the questioner fails to seek. Id.; see
Briggs, 463 F.3d at 513 (holding that a party has no
obligation to volunteer the content of a conversation
when deponent “was not expressly asked” what
another said to him). But a deponent may not “duck
her deposition” or “hold her cards in anticipation of a
later advantage.” Powell-Pickett v. A.K. Steel Corp.,
549 F. App’x 347, 353 (6th Cir. 2013). Where a
deponent is “asked specific questions about, yet
denie[s] knowledge of, the material aspects of her
case, the material allegations in her affidavit directly
contradict her deposition.” Id.; see Biechele v. Cedar
Point, Inc., 747 F.2d 209, 215 (6th Cir. 1984) (citation
omitted) (“If a party who has been examined at length
on deposition could raise an issue of fact simply by
submitting an affidavit contradicting his own prior
testimony, this would greatly diminish the utility of
summary judgment as a procedure for screening out
sham issues of fact.”).

10a
At her deposition, when first asked if she could
estimate the distance between the officers and
Blough, Reich responded that she could not—“[I]’m
not sure . . . . I don’t want to guess about it.” R. 55-5,
PageID 614. But she later guessed that Blough “was
probably 20 feet [away] when he took a step toward
them.” Id. After more probing about the distances,
Reich’s attorney intervened, telling Reich that “if [she]
fe[lt] comfortable with the distances” she could testify
to that, but that she should not guess. Id., PageID 615.
Reich then gave her final answer: “Yeah, I don’t feel
comfortable with the -- the estimated length of -- you
know, I don’t feel comfortable with it. Because it’s
been a long time and I just don’t feel comfortable with
estimating on that.” Id. And the exchange ended with
a definitive answer from Reich, removing any doubt
as to her testimony on the issue:
Q: So your testimony is you have no idea how
far [Blough] was from the officers when he
was shot.
A: Right. But he was far enough that he
wasn’t a threat to them.
Q: Okay. But you have no idea how far he was
when he was shot.
A: No.
Id.
Almost a year to the day later, Reich’s affidavit
swore something different. She asserted that once she
returned to the scene of the shooting in April 2018—
over two months after discovery closed—she
accurately recalled where all four stood when the
officers fired on Blough. So nearly three years after
the shooting she measured and recorded the distances
between them. She placed the distance between

11a
Blough and Officer Richardson—who fired the first
shot—at just over twenty-five feet. Her measurements
put Officer McMillen over thirty-six feet away from
Blough. And she placed herself thirty-four-and-a-half
feet from him.
Reich’s affidavit plainly contradicts her deposition
testimony. Counsel asked several times for her
recollection regarding the distance between Blough
and the officers. In the face of this direct and thorough
questioning, Reich said that she did not know. Her
affidavit, asserting that she does know, therefore
contradicts. Powell-Pickett, 549 F. App’x at 353; see
Reid, 790 F.2d at 459–460 (“If such a statement had
been made, she was required to bring it out at the
deposition[.]”); Myers v. Huron Cty., No. 3:06CV3117,
2008 WL 271657, at *2 n.2 (N.D. Ohio Jan. 31, 2008)
(holding that a post-deposition affidavit’s new
assertions, filed after the close of discovery should not
be considered in deciding a motion for summary
judgment), aff’d, 307 F. App’x 917 (6th Cir. 2009).
Reich offered no persuasive justification for this
contradiction, so the district court disregarded it.
Even generously viewing this affidavit as
noncontradictory, Reich makes no real attempt to
argue that she filed her affidavit to supplement or
clarify her deposition testimony—in other words, that
it should not be viewed as “an attempt to create a
sham fact issue.” Aerel, 448 F.3d at 908. All other
signs point the same direction; Reich made no attempt
to clarify or qualify her answers on this issue at her
deposition when questioned by her own attorney, had
access to the scene before (and after) her deposition
testimony, and did not claim that her earlier
testimony reflected confusion about the questions
asked. See id. at 908–09 (citing these three factors as
“[a] useful starting point for this inquiry”). In fact, her

12a
affidavit concedes that she “returned to the scene of
the incident with [her attorney] to . . . respond to
[defendants’] motion for summary judgment.” R. 6115, PageID 2565; see Lanier v. Bryant, 332 F.3d 999,
1004 (6th Cir. 2003).
As for the dissent, it grounds its disagreement on
Reich’s not having access to the site during her
deposition, and on the evidence therefore being “newly
discovered.” Not knowing the distances before her
deposition, is one thing. But not using the many
months between that deposition date and the end of
the discovery period to visit the site, take
measurements, and amend her testimony is quite
another. Rather, she waited until after discovery
closed and she could no longer be deposed to offer her
revised view. This timing supports evaluating the
evidence as “newly discovered” only in the sense that
she refused to “discover” it earlier.
We see no abuse of discretion in the district court
so deciding.
B. Excessive Force
Reich argues the officers violated the Fourth
Amendment in shooting Blough. 3 The officers assert
the affirmative defense of qualified immunity. The
district court held that qualified immunity shielded
the officers. We agree.
Qualified immunity protects government officials
from civil damages “unless (1) they violated a federal
statutory or constitutional right, and (2) the
unlawfulness of their conduct was ‘clearly established
at the time.’” District of Columbia v. Wesby, 138 S. Ct.
Reich did not appeal her Eighth Amendment claim. See
generally Appellant Br. At the summary judgment hearing in
October 2018, plaintiffs stated that they no longer wished to
pursue the claim, so the district court dismissed it as moot.

3

13a
577, 589 (2018); Harlow v. Fitzgerald, 457 U.S. 800,
818 (1982). This doctrine “‘gives ample room for
mistaken judgments’ by protecting ‘all but the plainly
incompetent or those who knowingly violate the law.’”
Chappell v. City of Cleveland, 585 F.3d 901, 907 (6th
Cir. 2009) (citation omitted). Plaintiffs bear the
burden of showing that qualified immunity does not
apply, and must show both prongs to carry it. Id.
Courts have discretion to engage the prongs in any
order, Pearson v. Callahan, 555 U.S. 223, 236 (2009),
so we first answer whether the officers violated
Blough’s constitutional right to be free from excessive
force.
We analyze excessive force claims during the
“seizure” of a free citizen under the Fourth
Amendment’s “objective reasonableness” standard.
Graham v. Connor, 490 U.S. 386, 392 (1989). An
officer’s use of deadly force is objectively reasonable if
“the officer has probable cause to believe that the
suspect poses a threat of serious physical harm, either
to the officer or to others.” Tennessee v. Garner, 471
U.S. 1, 11 (1985); see Latits v. Phillips, 878 F.3d 541,
547 (6th Cir. 2017); Williams v. City of Grosse Pointe
Park, 496 F.3d 482, 487 (6th Cir. 2007). This objective
test requires courts to judge the use of force from the
perspective of a reasonable officer on the scene, “in
light of the facts and circumstances confronting them,
without regard to their underlying intent or
motivation.” Graham, 490 U.S. at 396.
That means we must give careful attention to the
facts and the totality of the circumstances of the case,
“including [1] the severity of the crime at issue, [2]
whether the suspect poses an immediate threat to the
safety of the officers or others, and [3] whether he is
actively resisting arrest or attempting to evade arrest
by flight.” Id. at 396; see Garner, 471 U.S. at 8–9.

14a
Police officers routinely face “tense, uncertain, and
rapidly evolving” situations that force split-second
judgments about the degree of force required; our
calculus must account for that fact. Graham, 490 U.S.
at 396–97. So we evaluate the force used through the
eyes of a reasonable officer at the scene, not with “the
20/20 vision of hindsight.” Id. at 397; see Burchett v.
Kiefer, 310 F.3d 937, 944 (6th Cir. 2002) (“This
standard contains a built-in measure of deference to
the officer’s on-the-spot judgment about the level of
force that is necessary” in a particular situation.).
Our precedents further refine our view by
requiring that we analyze excessive force claims in
segments. Dickerson v. McClellan, 101 F.3d 1151,
1162 (6th Cir. 1996); see Livermore ex rel. Rohm v.
Lubelan, 476 F.3d 397, 406 (6th Cir. 2007). This
approach requires us to evaluate the use of force by
focusing “on the ‘split-second judgment’ made
immediately before the officer used allegedly
excessive force,” not on the poor planning or bad
tactics that might have “created the circumstances”
that led to the use of force. Lubelan, 476 F.3d at 407
(quoting Dickerson, 101 F.3d at 1161); see Rucinski v.
City of Oakland, 655 F. App’x 338, 342 (6th Cir. 2015)
(“[W]e are required to . . . focus[] on the moments
immediately preceding th[e] use of force[.]”).
We thus need not engage Reich’s argument that
the officers created the need to use deadly force by
pursuing and initiating contact with Blough despite
his mental illness. Even were we to consider that
argument, Supreme Court precedent suggests that it
should not change our answer. See City and Cty. of
S.F. v. Sheehan, 135 S. Ct. 1765, 1777 (2015)
(“[Plaintiff] cannot establish a Fourth Amendment
violation based merely on bad tactics that result in a

15a
deadly confrontation that could have been avoided.”)
(internal quotation marks omitted).
Nor do we find persuasive Reich’s citation to
Champion v. Outlook Nashville, Inc., 380 F.3d 893
(6th Cir. 2004), for the proposition that we should
consider a person’s mental illness when determining
whether an officer used reasonable force. That case
actually says that “[t]he diminished capacity of an
unarmed detainee must be taken into account when
assessing the amount of force exerted.” Id. at 904
(emphasis added). Wielding a knife until the moment
officers shot him obviates Champion here. And Reich
points to “no case law restricting an officer’s ability to
use deadly force when she has probable cause to
believe that a mentally ill person poses an imminent
threat of serious physical harm to her person[.]”
Rucinski, 655 F. App’x at 342.
With that foundation, our analysis focuses on the
officers’ final encounter with Blough. We construe the
evidence and draw all reasonable inferences in Reich’s
favor but, because this case concerns qualified
immunity, consider “only the facts that were
knowable to the defendant officers.” White v. Pauly,
137 S. Ct. 548, 550 (2017). That means we put aside
the numerous 911 calls from neighborhood residents
describing Blough’s alarming behavior and the steps
each took to secure their homes and families. See R.
61-11, PageID 2329 (“We don’t hear the 911 calls. We
just hear what we’re dispatched to.”). Here, applying
the Graham factors, the totality of the circumstances
gave the officers probable cause to believe that Blough
posed a threat of serious physical harm to them and
others. 4 See Garner, 471 U.S. at 11.
Because this situation plainly fits within the Graham test,
we, like the district court, look past the “more tailored set of

4

16a
The undisputed facts show that both officers saw
Blough wielding a knife, shirtless, pacing back and
forth between houses in the neighborhood. 5 They both
knew that he had severe schizophrenia, had not been
taking his medication, disliked the police, and thought
“everybody [was] out to get him.” After the officers
exited their vehicles, Blough walked at a fast pace
toward the officers with the knife in his right hand
and refused Reich’s pleas to drop the knife and return
to her vehicle. Both officers stayed near their vehicles,
never moving toward Blough.
When both officers then commanded—at least
once each—that Blough drop the knife, he again did
not. Instead, Blough “took a step forward toward”
Richardson with his knife raised in his right hand in
a stabbing position and said, “you’re gonna have to kill
me mother ****er.” That prompted officers to fire
three rapid shots in a single volley—the first two by
Richardson, the last by McMillen—with Blough
having advanced within six to twelve feet of Officer
Richardson. Reich claims that Blough “turned
around” and took “one or two steps” before the officers
fired, and thus posed no threat to anyone at the time
the officers fired.
Absent Blough’s step away, our precedents
provide a clear answer. In Chappell, we held the use
of deadly force objectively reasonable where detectives
shot and killed a fifteen-year-old when he stepped
toward them, closing the distance to five to seven feet,
raised his right hand holding a knife, and refused
commands to drop it. 585 F.3d at 910–11. See Rhodes
factors” suggested for medical-emergency cases. See Estate of
Hill by Hill v. Miracle, 853 F.3d 306, 314 (6th Cir. 2017).
5
As Officer McMillen explained, Blough’s conduct
constituted—at the very least—trespass, disorderly conduct,
menacing, and wanton endangerment.

17a
v. McDannel, 945 F.2d 117, 118 (6th Cir. 1991)
(holding use of deadly force objectively reasonable
where officer shot and killed suspect brandishing a
knife after suspect failed to comply with demands to
drop the knife and advanced within four to six feet of
the officer). More recently, in Rucinski, we held that
an officer acted reasonably as a matter of law when
she shot and killed a mentally ill man after he pulled
out and opened a knife, said “here we go” or “bring it
on,” moved toward the officer, disregarded orders to
drop the knife, and approached to within five feet of
the officer while “brandishing the knife in his
outstretched hand.” 655 F. App’x at 341– 42.
But even including Reich’s view that Blough
“step[ped] away” in the story, the officers’ conduct was
still objectively reasonable—Blough had just told
Officer Richardson “you’re going to have to kill me
mother ****er,” refused repeated commands to drop
his weapon, and advanced within six to twelve feet of
Richardson with the knife raised in a stabbing
position. Stevens-Rucker v. City of Columbus, 739 F.
App’x 834, 840 (6th Cir. 2018) (holding use of force
objectively reasonable where officer shot man holding
knife six to eight feet away after he refused to drop
the knife, even though it “[was] certainly possibl[e]
that [he] was merely attempting to leave the
enclosure,” because “it [was] undisputed that his first
move—once confronted by [the officers]—was a move
toward [one officer]”).
Yes, in addition to the bullet that grazed Blough’s
forearm and entered his “lower right chest,” one bullet
entered Blough’s “upper right back.” But the officers
fired from different spots, and Blough approached
Officer Richardson “at a slight angle” with his body
“bladed a little bit,” not with his shoulders square to
the officers. See Gaddis v. Redford Twp., 364 F.3d 763,

18a
776–77 (6th Cir. 2004) (reasoning that, because the
officers fired at Gaddis from different vantage points,
his back wound from the shots did not undercut the
officers’ testimony (corroborated by video) that they
fired in response to a knife attack). Taken as a whole,
this record cannot support the inference Reich wishes
us to draw—that the officers shot despite Blough
posing no imminent threat at the time. See Chappell,
585 F.3d at 909 (“[A]ll reasonable inferences are
drawn in favor of the plaintiff, to the extent supported
by the record[.]”) (emphasis added).
Though we view the facts in the light most
favorable to Reich, we note that her version of events
only faintly resembles the picture offered by the
officers, the eyewitnesses, and the medical evidence.
What’s more, her own deposition testimony often
contradicts. See Jeffreys v. City of New York, 426 F.3d
549, 555 (2d Cir. 2005) (affirming grant of summary
judgment in excessive force case where “nothing in the
record” supported plaintiff’s allegations “other than
plaintiff’s own contradictory and incomplete
testimony”). At times she painted a protracted
confrontation: that the first shot struck Blough’s back,
prompting him to turn around and say “you shot me,”
and that he turned around again (back facing the
group) before the officers resumed firing. But at other
times she testified that Blough did not “say anything
else to” the officers, and that the officers fired
rapidly—”[i]t was bam, bam, bam, like pretty much
right there together.”
In the face of such contradictions, no reasonable
fact finder would credit her allegation that, after
being shot once, Blough turned to the officers, spoke,
and then turned around before the officers fired the
second and third shots. See Bush v. Compass Grp.
USA, Inc., 683 F. App’x 440, 449 (6th Cir. 2017)

19a
(“Although the non-moving party is entitled to all
reasonable inferences when evaluating a summary
judgment motion, when a plaintiff’s claims are only
supported by his ‘own contradictory and incomplete
testimony . . . no reasonable person would undertake
the suspension of disbelief necessary to credit the
allegations made in his complaint.” (quoting Jeffreys,
426 F.3d at 555)).
“This is not a case where ‘a jury could conclude
that [the police were not] in any danger[.]’” Mullins v.
Cyranek, 805 F.3d 760, 767 (6th Cir. 2015) (citation
omitted). Still armed and belligerent, Blough posed a
serious threat to Officer Richardson and neighborhood
residents. In a matter of seconds, Blough advanced
within feet of an officer in a residential neighborhood,
ignored commands to drop his knife, stepped toward
the officer, raised the knife, and told the officer he
would have to kill him. Where “all parties agree that
the events in question happened very quickly,”
Graham’s prohibition on evaluating the scene with
20/20 hindsight “carries great weight.” Untalan v.
City of Lorain, 430 F.3d 312, 315 (6th Cir. 2005)
(citation omitted). The calculus of reasonableness
thus permits the officers’ split-second determination
here. Smith v. Freland, 954 F.2d 343, 347 (6th Cir.
1992) (“We must never allow the theoretical, sanitized
world of our imagination to replace the dangerous and
complex world that policemen face every day. What
constitutes ‘reasonable’ action may seem quite
different to someone facing a possible assailant than
to someone analyzing the question at leisure.”).
Even were we to find a constitutional violation,
Reich has failed to show that the unlawfulness of the
officers’ conduct was clearly established at the time.
Wesby, 138 S. Ct. at 589. To be “clearly established,”
the law must have been “sufficiently clear” such that

20a
“every ‘reasonable official would understand that
what he is doing’ is unlawful.” Id. (internal quotation
marks omitted). In other words, existing case law
“must have placed the statutory or constitutional
question beyond debate.” Ashcroft v. al-Kidd, 563 U.S.
731, 741 (2011). And it must not be defined at “a high
level of generality.” Kisela v. Hughes, 138 S. Ct. 1148,
1152 (2018). That’s especially true in the Fourth
Amendment context, “where the Court has recognized
that it is sometimes difficult for an officer to
determine how the relevant legal doctrine . . . will
apply to the factual situation the officer confronts.” Id.
Thus, in excessive force cases, qualified immunity
shields the officers “unless existing precedent
‘squarely governs’ the specific facts at issue.” Id. at
1153 (quoting Mullenix v. Luna, 136 S. Ct. 305, 309
(2015) (per curiam)). Given our decisions in Chappell
and Rhodes, we cannot say that every reasonable
officer would have understood his actions to be
unlawful.
The dissenting opinion argues that it was error to
exclude Reich’s affidavit and that the affidavit defeats
qualified immunity. But the district court held that it
would grant summary judgment even if it considered
the affidavit. We agree. Shooting Blough from a
distance of twenty-five to thirty-six feet would not
have violated any clearly established right. Because
“officers of reasonable competence” could believe that
it did not violate the Constitution, Officers Richardson
and McMillen may not be held liable. Malley v. Briggs,
475 U.S. 335, 341 (1998).
If Reich’s affidavit were credited, Blough would
still be a knife-wielding belligerent who (as the
officers knew) disliked the police, had “real bad”
schizophrenia, and was not taking his medications.
He would still have ignored the officers’ demands that

21a
he drop the knife. He would still have advanced
toward them with his knife hand raised in a stabbing
position. And he would still have announced—
moments before the shooting—”you’re gonna have to
kill me mother ****er.”
The only change the affidavit would make is to
place Blough some twenty feet farther away from the
officers. An assailant can close that distance in a
second or two. There is no rule that officers must wait
until a suspect is literally within striking range,
risking their own and others’ lives, before resorting to
deadly force.
Considering how perverse such a rule would be, it
is no surprise that no authority— including the
dissent’s—clearly establishes it. Indeed, Sova v. City
of Mt. Pleasant does not stand for a “strike zone” rule.
142 F.3d 898 (6th Cir. 1998). Sova does not even
mention the suspect’s distance from the officers.
While Studdard v. Shelby County does mention
distance, it does so as only one factor among several,
not as the be-all and end-all of Fourth Amendment
reasonableness. See 934 F.3d 478, 481–82 (6th Cir.
2019). Reading Sova and Studdard would not impress
upon every reasonable officer the clear understanding
that it is illegal to shoot someone behaving like Blough
if that person is twenty-five feet away from one officer
and thirty-six feet away from another.
In the “tense, uncertain, and rapidly evolving”
circumstances of Blough’s encounter with Officers
Richardson and McMillen, reasonable minds could
deny that twenty feet made the difference between a
legal use of deadly force and an illegal one. Graham,
490 U.S. at 396–97. Thus, for the same reasons the
officers did not violate constitutional law by shooting
Blough if he was five feet away, they did not violate
clear constitutional law by shooting Blough if he was

22a
twenty-five to thirty-six feet away. No legal principle
“clearly prohibit[ed]” the use of deadly force “in the
particular circumstances before [the officers].” Wesby,
138 S. Ct. at 590. And it was not “plainly incompetent”
for the officers to consider Blough a threat. Id. at 589
(citation omitted).
C. State Law Claims
Reich argues that Officers Richardson and
McMillen violated various state laws during the
confrontation with Blough. The officers again raise
the defense of qualified immunity, this time under
Kentucky law. The district court agreed with the
officers. So do we.
Under Kentucky law, qualified immunity protects
a police officer so long as he performed “(1)
discretionary acts or functions . . . ; (2) in good faith;
and (3) within the scope of [his] authority.” Yanero v.
Davis, 65 S.W.3d 510, 521–22 (Ky. 2001). This
doctrine applies to negligence actions and intentional
torts. Gati v. W. Ky. Univ., 762 F. App’x 246, 253 (6th
Cir. 2019). The determination of the amount of force
required, including the decision to use deadly force, is
a discretionary act. Nichols v. Bourbon Cty. Sheriff’s
Dep’t, 26 F. Supp. 3d 634, 642 (E.D. Ky. 2014); see
Marson v. Thomason, 438 S.W.3d 292, 297 (Ky. 2014)
(stating that discretionary acts involve “the exercise
of discretion and judgment, or personal deliberation,
decision, and judgment”); Yanero, 65 S.W.3d at 522
(noting that qualified immunity affords protection for
“good faith judgment calls made in a legally uncertain
environment”).
And the use of deadly force plainly falls within the
scope of a police officer’s authority. Ky. Rev. Stat. Ann.
§ 503.050(1)-(2) (stating that an officer may use
deadly force if he “believes that such force is necessary
to protect himself against death[] [or] serious physical

23a
injury”); see Woosley v. City of Paris, 591 F. Supp. 2d
913, 922 (E.D. Ky. 2008). Because the officers
performed discretionary acts within their authority,
the burden shifts to Reich “to establish by direct or
circumstantial evidence that the discretionary act[s]
w[ere] not performed in good faith.” Yanero, 65 S.W.3d
at 523.
That leaves us with the question whether the
officers acted in good faith. This inquiry, adopted from
the Supreme Court’s decision in Harlow, has both an
objective and subjective component. Id. (citing
Harlow, 457 U.S. at 815). Objectively, a court must
ask whether the officer’s conduct demonstrates “a
presumptive knowledge of and respect for basic,
unquestioned constitutional rights.” Bryant v. Pulaski
Cty. Detention Ctr., 330 S.W.3d 461, 466 (Ky. 2011).
Subjectively, courts ask whether the official behaved
with “permissible intentions.” Id. Thus, Reich can
show bad faith by pointing to (1) “a violation of a
constitutional, statutory, or other clearly established
right which a person in the public employee’s position
presumptively would have known was afforded a
person in [Blough’s] position”; or (2) evidence that an
officer “willfully or maliciously intended to harm
[Blough] or acted with a corrupt motive.” Id.; Yanero,
65 S.W.3d at 523.
Our analysis of Reich’s Fourth Amendment claim
takes care of prong one—the officers did not violate
Blough’s constitutional right to be free from excessive
force and, even if they did, the unlawfulness of the
officers’ conduct was not clearly established at the
time. As to the second, Reich never argued that the
officers willfully or maliciously intended to harm
Blough or acted with corrupt intentions. See Howell v.
Sanders, 668 F.3d 344, 356 (6th Cir. 2012) (“This
inquiry is resolved by determining ‘whether the

24a
official has behaved with permissible intentions.’”)
(citation omitted). To be sure, Reich’s opening brief
includes one line addressing the issue: “[T]he patently
unjustifiable circumstances of [the] shooting . . . raise
the question of whether [the officers] acted with
malice or a corrupt motive, which is a state-of-mind
issue that must be resolved by a jury[.]” Appellant Br.
53. This statement, however, unsupported by citation
to the record, fails to present a genuine issue of fact.
See Matsushita, 475 U.S. at 586. Our independent
review of the record turned up no facts to support a
finding of bad faith.
For that reason, Reich’s claims of negligence,
negligent infliction of emotional distress, and
wrongful death fail. See Patton v. Bickford, 529
S.W.3d 717, 729 (Ky. 2016) (“[A] wrongful death claim
. . . is, at its core, a tort claim based upon negligence.”);
Ky. Rev. Stat. Ann. § 411.130(1). So too her common
law battery claim. See Atwell v. Hart Cty., 122 F.
App’x 215, 219 (6th Cir. 2005) (holding that a battery
claim under Kentucky law must fail where the
officer’s conduct was deemed objectively reasonable in
the § 1983 context). Same goes for her outrage and
intentional infliction of emotional distress claims. See
id. (“[T]he torts of outrage and intentional infliction of
emotional distress are premised upon extreme and
outrageous conduct intentionally or recklessly
causing emotional distress.”).
Last, Reich’s briefs lodge no argument supporting
claims, federal or state, against the City of
Elizabethtown. But even if she had mentioned here
the same claims she brought below—negligent hiring,
training, and supervising—they would fail because
she has not shown that the officers inflicted a
constitutional harm on Blough. See Scott v. Clay Cty.,
205 F.3d 867, 879 (6th Cir. 2000) (“[O]ur conclusion

25a
that no officer-defendant had deprived the plaintiff of
any constitutional right a fortiori defeats the claim
against the County as well.”); McQueen v. Beecher
Cmty. Sch., 433 F.3d 460, 471 (6th Cir. 2006); Whitlow
v. City of Louisville, 39 F. App’x 297, 302 (6th Cir.
2002) (“[I]f Whitlow suffered no constitutional
violation, then Plaintiff’s claims against Louisville . .
. alleging that their lack of training and failure to
supervise the individual officers resulted in
Decedent’s death, must fail.”).
We AFFIRM.

26a
DISSENT
KAREN NELSON MOORE, Circuit Judge,
dissenting. The majority paints a distressing picture,
one in which Officers Richardson and McMillen shot
and killed Joshua Blough because he was a “knifewielding belligerent” “advanc[ing] toward them with
his knife hand raised in a stabbing position,” and
screaming obscenities like “you’re gonna have to kill
me mother ****er.” Maj. Op. at 15. If the record
supported that picture—and that picture alone—I
might agree with my colleagues that the officers are
entitled to qualified immunity. The problem, however,
is that the record is not amenable to such a one-sided
rendering. Rather, as I see it, there are two sides to
this story: the officers’ view—which the majority
details with great care— and Elizabeth Reich’s view—
which the majority sweeps under the rug. And, as
Reich tells it, Officers Richardson and McMillen shot
and killed her fiancée, Blough, right in front of her, (a)
while Blough was standing 20 to 30 feet away from the
officers and Reich, and (b) while Blough was turning
to run away from the officers. Accepting Reich’s
narrative as true, as we must at this stage of
litigation, any reasonable police officer should have
known that shooting Blough violated clearly
established Sixth Circuit law. See Studdard v. Shelby
County, 934 F.3d 478 (6th Cir. 2019); Sova v. City of
Mt. Pleasant, 142 F.3d 898 (6th Cir. 1998).
Accordingly, in my view, qualified immunity does not
protect Officers Richardson and McMillen; this case
should be going to trial.
A. Reich’s Affidavit
As an initial matter, I, unlike the majority, believe
the district court abused its discretion when it

27a
disregarded
Reich’s
post-deposition
affidavit.
Consequently, in my opinion, Reich’s affidavit should
be considered as important a piece of evidence as
anything else in the record. This is so for the following
reasons.
At her deposition, Reich testified that, during the
final confrontation between Blough and the officers,
the officers ordered Blough to put down his knife.
After that, Reich continued, Blough “took a step
forward toward them and then he turned around to
run,” prior to being shot. R. 55-5 (Reich Dep. at 102–
03) (Page ID #614–15). Defense counsel then asked
Reich about Blough’s distance from the officers. The
following colloquy occurred:
Q: Okay, when he took a step toward the
officers, how close was he to the officers?
A: He was far enough away that it—they—he
wasn’t a direct threat to them.
Q: Okay. Can you estimate that in feet or
yards or car lengths—
A: No.
Q: —or—
A: No, because I’m not sure.
Q: Okay. And I don’t want you to guess,—
A: Right.
Q: —I’m just—
A: Yeah, I’m not—I don’t want to guess about
it.
Q: Or, you know, you can look at this room and
the clock down there or something. I—I’m just
trying to get an idea was—was Josh ten feet

28a
away, 20 feet away, 30 feet away, 50 feet
away.
A: I would say about 20.
Q: Okay. And was—was he 20 feet when he
took a step toward them or was that the 20
feet or—
A: Yeah, it was probably 20 feet being when he
took a step toward them.
Q: Okay. So he’s roughly 20 feet away, plus he
took one step toward them, which would bring
him roughly what, I don’t know, 18, 17—
A: Yeah.
Q: —something like that. And then he turned
and went the—
A: He turned to—
Q: —other direction.
A: Yeah, he turned around to run.
R. 55-5 (Reich Dep. at 103–04) (Page ID #614). Some
intervening testimony occurred, and then counsel
returned to the subject of distance:
Q: I don’t want you to guess, I’m just trying to
get an idea, would he have then been 22 or 23
feet or so away when he was shot?
Reich’s counsel then intervened:
[Reich’s counsel]: You know, I’ve let it go on
way too long I guess. You say you don’t want
her to guess, but then you want her to guess.
So I’m going to object to the question. You
can—if you feel comfortable with the
distances and so on, you can testify to that—
[Reich]: Right.

29a
[Reich’s counsel]: —but don’t guess.
[Reich]: Okay.
Reich and
conversation:

defense

counsel

resumed

their

A: Yeah, I don’t feel comfortable with the—the
estimated length of—you know, I don’t feel
comfortable with it. Because it’s been a long
time and I just don’t feel comfortable with
estimating on that.
Q: So your testimony is that you have no idea
how far Josh was from the officers when he
was shot.
A: Right. But he was far enough that he wasn’t
a threat to them.
Q: Okay. But you have no idea how far he was
when he was shot.
A: No.
Id. at 105–06 (Page ID #615).
About a year later, Reich (and her attorney)
returned to the site of the shooting—a spot Reich had
long avoided due to the emotional trauma it
provoked—and decided to place cones at the spots
where Reich believed she, Blough, Richardson, and
McMillen had stood at the time of the shooting. R. 633 (Reich Aff. at 1, 3) (Page ID #2965, 2967). Reich then
reported the results of this exercise in an affidavit in
response to Defendants’ summary-judgment motion.
More specifically, Reich placed Blough as having been
25 feet and 6 inches from Richardson, 36 feet and 4
inches from McMillen, and 34 feet and 6 inches from
herself at the moment he was shot. Id. at 3 (Page ID
#2967). Notably, despite the considerable differences
between Reich’s affidavit’s measurements and the

30a
distance estimates that McMillen and Richardson
offered at their depositions, the locations of the cones
placed by Reich more or less line up with the scene
described by the officers: Blough had been shot at the
edge of the grass and the street, the officers had been
in the middle of the street (because they had parked
in the right lane and were standing beside the drivers’
sides of their vehicles), Blough and Reich were closer
to Richardson than to McMillen, and McMillen was
farther down the street than Richardson. R. 63-3
(Reich Aff. at 46) (Page ID #3010).
“A party cannot create a factual dispute by filing
an affidavit, after a motion for summary judgment has
been made, which contradicts earlier testimony.”
Dotson v. U.S. Postal Serv., 977 F.2d 976, 978 (6th Cir.
1992). If the party does so, she “must explain why she
disagrees with herself.” Powell-Pickett v. A.K. Steel
Corp., 549 F. App’x 347, 352 (6th Cir. 2013). Where
“the alleged inconsistency created by the affidavit
existed within the deposition itself,” however, the
later affidavit should be allowed. O’Brien v. Ed
Donnelly Enterprises, Inc., 575 F.3d 567, 593 (6th Cir.
2009) (quotation omitted). In such a case, “there is no
direct contradiction” and “the court must not
disregard the affidavit, unless the court determines
that the affidavit constitutes an attempt to create a
sham fact issue.” Id. (quotation omitted). “Factors
relevant to the existence of a sham fact issue include
[1] whether the affiant was cross-examined during his
earlier testimony, [2] whether the affiant had access
to the pertinent evidence at the time of his earlier
testimony or whether the affidavit was based on
newly discovered evidence, and [3] whether the earlier
testimony reflects confusion which the affidavit
attempts to explain.” Franks v. Nimmo, 796 F.2d

31a
1230, 1237 (10th Cir. 1986); accord Aerel, S.R.L. v.
PCC Airfoils, L.L.C., 448 F.3d 899, 908 (6th Cir. 2006).
We have applied these standards to allow the
striking of affidavits that are truly in direct conflict
with the unequivocal content of the earlier testimony.
In Powell-Pickett v. A.K. Steel Corp., for example, the
plaintiff invoked a constant refrain of “I don’t recall at
this time” in response to broad deposition questions
about the discrimination she allegedly suffered. 549
F. App’x at 351–52. In opposing a motion for summary
judgment, however, the plaintiff submitted an
affidavit that recounted specific instances of
discrimination. Id. at 352. We accordingly concluded
that, because the plaintiff had “profess[ed] a
comprehensive and incredible lack of memory” at her
deposition, and yet had submitted no evidence
explaining why she had been so unresponsive, the
district court acted properly when it struck her
affidavit. Id. at 353. By contrast, in Briggs v. Potter,
463 F.3d 507, 513–14 (6th Cir. 2006), we concluded
that the district court abused its discretion when it
struck an affidavit that merely added “greater detail”
to a subject a party had been questioned about only in
generalities at his deposition.
Reich’s affidavit submitted in opposition to
Defendants’ motion for summary judgment neither
directly contradicts her deposition testimony nor fails
to explain any inconsistencies between them. Rather,
it is easy to understand why she could not answer
questions about the distance between the actors
present at the scene of the shooting during her
deposition and why she was able to furnish that
information in the subsequent affidavit.
To begin, this is a case where “the alleged
inconsistency created by the affidavit existed within
the deposition itself,” not one where the later affidavit

32a
directly contradicted unequivocal testimony from the
earlier deposition. O’Brien, 575 F.3d at 593 (quoting
Kennett-Murray Corp., 622 F.2d at 894). Unlike the
plaintiff in Powell-Pickett, Reich neither testified
unequivocally about, nor completely denied
knowledge of, the general distance between the
parties present at the shooting. The fairest
interpretation of the quoted exchange from Reich’s
deposition is not that she had no knowledge at all of
the distances between the various actors during the
shooting she witnessed, but rather that she did not
feel comfortable estimating those distances in feet and
inches while sitting at her deposition. Indeed, Reich
initially ventured a guess when pressed (20 feet
between Richardson and Blough, which is fairly close
to the 25 feet and six inches measurement included in
her affidavit) before then admitting she was unsure of
“the estimated length.” R. 55-5 (Reich Dep. at 105–06)
(Page ID #615). In other words, Reich did anything
but provide a “definitive answer” to the distance issue
at her deposition. Maj. Op. at 7.
Furthermore, Reich did not create a sham issue of
fact with her affidavit. Consider the three Franks
factors. First, although Reich was essentially crossexamined at her deposition, the questioning by both
attorneys only teased out the equivocal nature of her
testimony. See O’Brien, 575 F.3d at 593 (“[Whether
the deponent/affiant was cross-examined] matters,
because a party who is cross-examined but
nevertheless offers unequivocal testimony, only to be
contradicted by a later affidavit, has indeed tried to
create a sham fact issue.”) (emphasis added). Second,
Reich did not have “access to the pertinent evidence
at the time of” her deposition. Franks, 796 F.2d at
1237. She had not been back to the site of the shooting
since it occurred years earlier and had certainly not

33a
been there with a tape measure. Consequently, her
affidavit is best classified as “newly discovered
evidence.” Id. And, third, as I explained above, Reich’s
“earlier testimony reflects confusion which [her later]
affidavit attempts to explain.” Id. Moreover, unlike
the party offering the stricken affidavit in PowellPickett, Reich explained any inconsistency between
her deposition testimony and her affidavit: she had
initially avoided returning to the site of the shooting
because it was emotionally traumatic to do so, but
then summoned up the courage when it became
necessary to clarify her earlier testimony.
All told, although a reasonable juror might find
the timing of Reich’s affidavit concerning, that does
not mean the district court had a firm legal basis on
which to strike the affidavit in its entirety.
Accordingly, the district court abused its discretion
when it struck Reich’s affidavit; I would consider it
part of the record in evaluating Defendants’ motion
for summary judgment. See Briggs, 463 F.3d at 511
(noting that a district court can abuse its discretion by
“misapply[ing] the correct legal standard when
reaching a conclusion”).
B. The Facts, Viewed in the Light Most
Favorable to Reich
With that threshold issue resolved, I now consider
what version of the facts we must accept as true for
purposes of this appeal. With respect to the legal
standard, I agree with the majority: “Courts must
construe the evidence and draw all reasonable
inferences in favor of the nonmoving party,” here,
Reich. Maj. Op. at 5–6 (quotation omitted); accord
Tolan v. Cotton, 572 U.S. 650, 656 (2014) (“[U]nder
either prong [of the qualified-immunity analysis],
courts may not resolve genuine disputes of fact in
favor of the party seeking summary judgment.”).

34a
When it comes to applying this standard, however, the
majority ignores or downplays two genuine disputes
of material fact, both of which are essential to the
resolution of this case: First, Blough’s distance from
Reich, McMillen, and Richardson at the time the
officers shot him. Second, Blough’s position vis a vis
the officers and Reich at the time the officers shot him.
Viewing these disputes in the light most favorable
to Reich, a reasonable juror could find (1) that Blough
was dozens of feet from any other person at the time
he was shot, and (2) that he was turning to run away
from the officers at that time, too. Accordingly, I,
unlike the majority, would credit those two facts as
true, period. But see Maj. Op. at 13–14 (repeatedly
casting doubt on Reich’s credibility, instead of simply
accepting her narrative as true).
1. Distance between Blough, Reich, and the
officers at the time of the shooting
With respect to the distances between Blough,
Reich, and the officers at the time of the shooting,
Officer Richardson testified that when he first began
speaking to Blough, Blough was across the street from
Richardson, standing between two houses, some 125
feet away. Richardson then testified that Blough
advanced from the grassy yard to the edge of the road
and was only “six to eight feet” away from him when
he (Richardson) opened fire. R.55-9 (Richardson Dep.
at 92) (Page ID #709); accord R. 55-10 (McMillen Dep.
at 152) (Page ID #775) (similar testimony).
Reich, however, disagrees. Again, as Reich tells it,
at the moment the officers shot Blough, Blough was
25 feet and 6 inches away from Richardson, and 36
feet and 4 inches away from McMillen. R. 63-3 (Reich
Aff. at 3) (Page ID #2967). Reich’s testimony thus puts
Blough three to four times further away from

35a
Richardson than Richardson’s and McMillen’s
accounts do.
2. Whether Blough had turned to run
With respect to whether Blough had turned to run
by the time the officers shot him, Officer McMillen
testified that Blough never stopped to turn away and
was facing Richardson during the entire encounter. R.
55-10 (McMillen Dep. at 154) (Page ID #776).
Reich, however, testified that Blough had turned
to run away from the officers and had taken “one or
two steps” away from them before he was shot. R. 555 (Reich Dep. at 105) (Page ID #615). She also testified
that after Blough was “shot the first time he turned
around and said, you shot me,” and that, after that,
Blough “turned back around and [] got shot two more
times.” Id. at 114 (Page ID #617). And, if that
testimony weren’t enough, Reich has also pointed out
that Blough’s autopsy indisputably proved that one of
the officers’ bullets hit Blough in the “upper right
back.” R.55-5 (Medical Report) (Page ID #547–48).
The majority attempts to explain away Reich’s
narrative by either (a) calling Reich’s testimony
“contradictory,” or (b) asserting that the officers must
have shot Blough “from different spots” (presumably
reasoning that one officer shot Blough in the chest
while the other shot him in the back). Maj. Op. at 13–
14. This reasoning not only ignores the testimony of
Defendants’ own ballistics expert—who opined that
the two bullets that struck Blough came from just
Officer Richardson’s gun (thus obviating the
majority’s “second shooter” theory), see R. 55-20
(Smock Rep. at 9) (Page ID #915)—but it
impermissibly prejudges Reich’s credibility, which, of
course, we cannot do at this stage. See Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 255 (“Credibility
determinations, the weighing of the evidence, and the

36a
drawing of legitimate inferences from the facts are
jury functions, not those of a judge.”) (emphasis
added). Police officers may be entitled to a number of
unique defenses in civil litigation, but a watered-down
summary-judgment standard is not one of them.
Tolan, 572 U.S. at 656–57.
C. Qualified Immunity
With this understanding of the facts in hand, I
now turn to qualified immunity. Again, I agree with
the majority’s description of the legal standard in all
relevant respects. Qualified immunity is a twopronged inquiry, where we ask (1) whether the officers
“violated a federal statutory or constitutional right,”
and (2) whether “the unlawfulness of [the officers’]
conduct was clearly established at the time.” Maj. Op.
at 9 (quotation omitted). We must “evaluate the force
used through the eyes of a reasonable officer at the
scene, not with the 20/20 vision of hindsight.” Id. at 10
(quotation omitted). And clearly established law
“must not be defined at a high level of generality.” Id.
at 14 (quotation omitted). Rather, “existing precedent”
must “squarely govern[] the specific facts at issue.” Id.
(quotation omitted).
But, even accepting all these premises as true, 1 I
still believe that Defendants are not entitled to
qualified immunity here, on these specific facts.
It bears mentioning that, in recent years, jurists and scholars
from across the ideological spectrum have questioned whether
we should accept all of these premises as true. See, e.g., Kisela v.
Hughes, 138 S. Ct. 1148, 1161–62 (2018) (Sotomayor, J.,
dissenting); Ziglar v. Abbasi, 137 S. Ct. 1843, 1871-72 (2017)
(Thomas, J., concurring); Zadeh v. Robinson, 902 F.3d 483, 498500 (5th Cir. 2018) (Willett, J., concurring); William Baude, Is
Qualified Immunity Unlawful?, 106 Cal. L. Rev. 45 (2018);
Joanna C. Schwartz, The Case Against Qualified Immunity, 93
Notre Dame L. Rev. 1797 (2018).
1

37a
With respect to prong one, a reasonable juror
could find that Defendants used excessive force
against Blough, in violation of the Fourth
Amendment. See Maj. Op. at 9–10 (setting forth
standard). Two cases—one very recent, the other a bit
older—prove the point.
First, in Sova v. City of Mt. Pleasant, 142 F.3d 898
(6th Cir. 1998), we considered whether the police
violated the Fourth Amendment when they shot and
killed a suicidal, knife-wielding man standing in his
front door—near his parents—and yelling to the police
“that he wanted [them] to shoot him.” Id. at 901.
Although the police claimed the man “charged at them
through the kitchen door with knives drawn on the
porch,” and that they accordingly had no choice but to
shoot to kill, we denied qualified immunity at
summary judgment because the man’s parents
claimed the officers shot their son “before he ever
stepped out of the kitchen doorframe” (meaning the
officers weren’t necessarily in immediate physical
danger at the moment they fired their weapons). Id.
at 902–903.
Similarly, in Studdard v. Shelby County, 934 F.3d
478 (6th Cir. 2019), petition for cert. filed, No. 19-609
(Nov. 12, 2019), we considered whether the police
violated the Fourth Amendment when they shot and
killed a suicidal, knife-wielding man standing beside
a road, about 34 feet from the officers, swaying and
threatening to slit his own throat. Id. at 480. We
likewise denied the officers qualified immunity at
summary judgment, reasoning that, although the
man was “dangerous and uncooperative,” and had
“refused to comply with [the officers’] commands to
put the knife down,” the man “did not pose a serious
risk to anyone in the area” at the moment he was shot
because he was 30-some feet away from the officers

38a
and had not moved towards the officers in any
appreciable way. Id. at 481. “There is a world of
difference between a knife-wielding suspect who runs
at officers and one who doesn’t,” we observed. Id. at
483.
This precedent effectively resolves the prong-one
analysis. Even acknowledging the “tense, uncertain,
and rapidly evolving” nature of Defendants’ encounter
with Blough, and the challenges of evaluating police
conduct with “the 20/20 vision of hindsight,” Maj. Op.
at 10, if there was a genuine dispute of material fact
in Sova and Studdard as to whether the suicidal,
knife-wielding decedent posed a “threat of serious
physical harm” to the surrounding public, such that
deadly force was justified, surely there is a triable
dispute here. If anything, Reich’s testimony that
Defendants essentially shot Blough in the back, as he
turned to run away, makes the officers’ actions even
more unreasonable than the actions at issue in Sova
and Studdard. Cf. Bouggess v. Mattingly, 482 F.3d
886, 892 (6th Cir. 2007) (finding fact issue as to
whether officer behaved reasonably when evidence
showed that officer shot the plaintiff “three times in
the back,” following a “hand-to-hand struggle”).
This brings me to the second prong of the
qualified-immunity analysis—clearly established law.
As the majority observes, this is a tough standard,
meant to protect “all but the plainly incompetent or
those who knowingly violate the law.” Maj. Op. at 9
(quotation omitted). But it is not insurmountable. See,
e.g., Kisela v. Hughes, 138 S. Ct. 1148, 1152 (2018)
(noting that there does not need to be a case “directly
on point” for a right to be clearly established); Hagans
v. Franklin County Sheriff’s Office, 695 F.3d 505, 508–
09 (6th Cir. 2012) (similarly remarking that a
constitutional right need only be “reasonably

39a
particularized” by prior case law). In my view, then,
the correct question to ask for purposes of this second
prong is whether, as of July 6, 2015, our law clearly
established that it was unconstitutional for a police
officer to shoot a non-compliant, mentally unstable
person with a knife, if that person was not advancing
toward another individual in the immediate area.
The answer to the question is yes. In 1998—
almost two decades before the shooting— Sova
established that reasonable police officers do not shoot
non-compliant persons brandishing knifes when they
are not advancing toward another individual in the
immediate area, even if the person is mentally ill,
suicidal, and/or yelling threats to the officers. 2
Consequently, because a reasonable juror could find
that Defendants violated this clearly established law
when they shot Blough, Reich has met her burden
under prong two.
In response, the majority claims I am trying to
create a black-and-white “strike zone rule,” where the
viability of a Fourth Amendment claim rise and falls
solely on the precise number of feet the decedent stood
from the police at the time of the shooting. Maj. Op. at
15. I am not. I am simply noting that, when confronted
with a materially similar set of facts twenty years ago,
we held that qualified immunity did not lie, and that,
therefore, Officers Richardson and McMillen were on
fair notice that qualified immunity would not protect
them here either. Cf. Kisela, 138 S. Ct. at 1154
(finding that officers were not on “fair notice” that
their conduct violated the Fourth Amendment
because the factual differences between the
purportedly governing Ninth Circuit precedent and
Indeed, just four months ago, another panel of this court
found exactly that. See Studdard, 934 F.3d at 481–83 (relying on
Sova as “clearly established law”).

2

40a
the facts before the Court “leap[t] from the page”).
Indeed, to hold otherwise is to hold Reich, and other
Fourth Amendment plaintiffs like her, to an
impossibly high standard, where they must dredge up
a mirror-image case (that happened to arise in this
circuit, and happened to result in a decision by this
court) to have any hopes of surviving a qualifiedimmunity challenge at summary judgment. But,
because history rhymes far more often than it repeats
exactly, we cannot, and should not, condition a Fourth
Amendment plaintiff’s access to a jury trial on their
meeting such an onerous burden.
The majority seeing it differently, I respectfully
dissent.

41a
APPENDIX B

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
LOUISVILLE DIVISION
AMANDA M. REICH, ET AL.

Plaintiffs
Civil Action No. 3:16cv-00429-RGJ

v.
CITY OF
ELIZABETHTOWN, ET AL.

Defendants

*****
MEMORANDUM OPINION AND ORDER

Plaintiffs,
Elise
Davidson,
successor
administratrix for Joshua Blough’s estate, and
Amanda Reich (collectively, “Plaintiffs”), bring this
action against the City of Elizabethtown (“City”),
Officer Scot Richardson, and Officer Matthew
McMillen (collectively, “Defendants”) alleging that the
City and its officers violated the Fourth and Eighth
Amendments to the United States Constitution when
the officers shot and killed Joshua Blough on July 7,
2015. [DE 35, Amend. Compl. at 217]. Plaintiffs also
bring related state-law tort claims. Discovery has
concluded, and Defendants now move for summary
judgment under Federal Rule of Civil Procedure 56.
[DE 55, MSJ]. A timely response [DE 61] and reply
[DE 68] were filed. Oral argument was held on
October 30, 2018. [DE 76]. This matter is ripe for
adjudication. Having considered the parties’ filings
and the applicable law, the Court GRANTS
Defendants’ Motion for Summary Judgment.

42a
BACKGROUND
A. Factual Background
On July 6, 2015, Steven Blough went to a
Communicare mental health facility in Leitchfield,
Kentucky. [DE 61, Resp. MSJ at 1707]. While being
assessed for potential treatment, Blough—who
suffered from chronic schizophrenia, paranoia,
depression, bipolar disorder, and was a chronic
methamphetamine and benzodiazepine user—
reported that he had not taken his medication for four
months and had attempted suicide three times,
including once in the prior five days. [DE 55-7, Comm.
Record]. He had previously been hospitalized for his
mental health conditions and drug abuse. [DE 55-6,
KYIBRS Rep.]. The Communicare counselor
recommended immediate admission. [DE 55-7,
Comm. Record]. Blough declined, but agreed to return
for admission and treatment the next day. Id. Before
departing, Blough signed a document agreeing that he
would not try to commit suicide or harm himself or
others before checking into a facility. Id.
The next day, Blough and his fiancé, Amanda
Reich, began traveling from Leitchfield to a
Communicare facility in Elizabethtown. [DE 61 at
1708]. While stopped at a traffic light, Blough saw a
Kentucky State Police (“KSP”) vehicle stopped on the
side of the Western Kentucky Parkway near White
Mills. [DE 55 at 503]. Blough, high on
methamphetamine,
became
“really
upset,”
hallucinated that the KSP were after him, and said
that “there were police officers everywhere.” [DE 555, Reich Depo. at 606].
Later, Blough and Reich stopped at another traffic
light on Highway 62 in Elizabethtown. Id. at 607–08.

43a
Blough was still hallucinating and, referring to the
police, said to Reich, “I’m not gonna let anybody hurt
you, but I’m not gonna let anybody hurt me either.”
Id. at 608. Blough, armed with an open and locked
three-inch knife, exited the vehicle. Id. After a brief
moment, Reich successfully talked him into
reentering the vehicle, and they drove on. Id.
Still armed with the blade open and locked,
Blough again exited the vehicle at the intersection of
Ring Road and Patriot Parkway in Elizabethtown. Id.
at 609. Reich said that “it was like when [Blough] was
walking he wasn’t even acknowledging any cars
coming by or nothing.” Id. She pleaded with Blough to
reenter the vehicle, but he refused and left the
intersection on foot. Id.
Reich felt that “she couldn’t contain the situation”
and immediately called 911. [DE 55-9, Richardson
Depo. at 693]. She told the dispatcher that she “was
afraid that somebody else would get the wrong idea
and call in thinking that [Blough] was a threat to
someone and that he would end up getting shot.” [DE
55-8, First 911 Transc. at 681]. She said that Blough
had “schizophrenia and stuff,” had “not had his
medicine,” and thought everybody was “out to get
him.” Id.
In response to Reich’s 911 call, Hardin County
Dispatch connected Reich to Officer Matthew
McMillen, and they spoke on the phone. [DE 55-5,
Reich Depo. at 610]. Officer McMillen then arrived at
the scene to do a welfare check, where Reich said that
Blough was off his medication, paranoid, and disliked
police. [DE 55-6, KYIBRS Rep.]. Reich told Officer
McMillen that she wanted to get Blough to reenter the
vehicle without police involvement. [DE 55-5, Reich
Depo. at 621]. Officer McMillen told her that if Blough
“is in that paranoid state and he sees an officer, you

44a
know, he could perceive us as a threat and act upon it,
especially if he’s armed with a knife.” [DE 61-7,
McMillen Statem. at 2192–95]. Reich told Officer
McMillen that Blough had not threatened anyone,
and Officer McMillen agreed to follow Reich’s plan. Id.
Officer McMillen returned to his vehicle and advised
dispatch of the situation. Id.
In the meantime, Blough had entered a
residential subdivision near Fontaine Drive. He had
removed his shirt and was sweating profusely. [DE
55-5, Reich Depo. at 608]. Reich thought Blough
seemed “agitated and upset.” Id. at 621. Nearby
residents reported that Blough was wandering onto
local properties and attempting to enter residences.
First, Helen Howlett said that she saw “a suspiciouslooking” man “wandering up-and-down the street into
my yard and the yards of my neighbors.” [DE 55-11,
Howlett Aff. at 823]. Second, Madison Pils said that
she “was walking home and saw a strange guy
walking a little bit of the way down the street...” [DE
55-12, Pils Statem. at 825]. Third, Randal Ray said
that, in response to Blough’s behavior, Ray “became
concerned and locked [his truck], closed the garage
door, and went into [his] house to get his pistol.” [DE
55-13, Ray Aff. at 826]. Finally, David Mills said that
he “saw a man on the patio of [his] brother’s house and
it looked like he was trying to get into [the] back door.”
[DE 55-14, D. Mills Aff. at 828]. Later, Mills said that
he “saw a man standing in [his] front yard” with a
knife in his hand. Id. Mills told Reich that he would
call 911 because “there were people and kids in the
neighborhood.” Id. The 911 Call Center received calls
from drivers passing the subdivision, one of whom
said that Blough had “a knife in his hand like he’s
going to stab somebody or someone.” [DE 55-15,
Second 911 Transc. at 830].

45a
Across from the subdivision, Severns Valley
Baptist Church was hosting a camp for about 200
children. [DE 55-16, Wilson Aff. at 837]. Reich had
parked “right by Severns Valley” [DE 55-8, 911
Transcript at 681–82], and the children were
recreating and playing on the lawn adjacent to
Blough’s location. [DE 55-16, Wilson Aff. at 837]. The
Church’s Executive Pastor said that Severns Valley
went on “lock down” and notified parents that the
children were unharmed. Id.
Reich entered the subdivision and asked Blough
to put the knife down and reenter the vehicle. [DE 555, Reich Depo. at 611]. Blough refused, and Reich
testified that Blough “must have seen the police—the
police talking to [her] so [Blough] thought [she] was
involved in trying to get him hurt too, you know.” Id.
at 611–12. Officer Scot Richardson was nearby and
reported seeing Blough in the neighborhood,
describing Blough’s behavior as “bizarre.” [DE 55-9,
Richardson Depo. at 697]. Officer McMillen returned
and spoke with Reich while Officer Richardson
arrived separately in a marked vehicle. [DE 55-10,
McMillen Depo. at 764]. Officer McMillen described
Blough’s presence in the residential neighborhood as
adding “another dynamic.” Id. at 784. Similarly,
Officer Richardson said that “the situation changed
from an enclosed vehicle to running across the major
roadway, to entering a field, to the situation changed
from ‘he’s probably going to be okay in a field’ setting,
to now he’s in the neighborhood with a knife and
there’s residents that live in that neighborhood.” [DE
55-9, Richardson Depo. at 705].
With Officers Richardson and McMillen now
present, Reich again asked the officers not to
approach Blough until she tried to make him drop the
knife. [DE 55-5, Reich Depo. at 613]. The officers

46a
agreed, and Reich approached Blough in a resident’s
front yard. Id. Blough still refused to drop the knife or
enter the vehicle. Id. As Reich continued to ask
Blough to drop the knife [DE 53, Reich Interview],
Blough moved toward Officer Richardson at a “very
fast pace.” [DE 55-9, Richardson Depo. at 700–02]. He
looked at Officer Richardson with the knife blade in a
stabbing position. Id. at 700; [DE 55-10, McMillen
Depo. at 768]. Blough stopped, touched Reich, and told
her to “get the fu** back.” [DE 55-9, Richardson Depo.
at 704].
Officer Richardson perceived Blough as a threat
to himself, Reich, and other persons in the
neighborhood, and commanded Blough to drop the
knife. Id. at 709, 715. Blough refused. 1 [DE 55-5,
Reich Depo. at 617]. Officer Richardson had his pistol
raised to the “on target” position. 2 Id. at 614. Still
The parties agree that Blough was intoxicated on
methamphetamine during this interaction. [DE 55 at 509; DE 61
at 1715]. Officer Richardson said Blough’s actions were
consistent with methamphetamine-induced behavior. [DE 55-9,
Richardson Depo. at 714]. Officer McMillen described such
individuals as “unpredictable.” [DE 55-10, McMillen Depo. at
787]. Plaintiffs also attribute Blough’s refusal to follow the
officers’ commands to his intoxication. [DE 61 at 1715]. Officers
Richardson and McMillen testified that they attempted to deescalate the situation by not activating their police lights or
sirens, not calling for more units to the scene, not crowding
Blough, and giving repeated commands for Blough to stop and
drop his weapon. [DE 55-9, Richardson Depo. at 714–15; DE 5510, McMillen Depo. at 761, 786–788]. They testified that they
employed other techniques as well, but Defendants dispute that
the officers employed those other techniques.
2
The parties disagree about when Officers Richardson and
McMillen first drew their weapons. Plaintiffs claim that the
officers had their weapons drawn while Reich spoke to Blough in
the subdivision. [DE 55-5, Reich Depo. at 619]. But Defendants
claims that the officers did not fully draw their weapons until
1

47a
looking at Officer Richardson, Blough said, “you’re
going to have to kill me motherf**ker.” Id. at 615.
Blough stepped either toward or away from
Officer Richardson. 3 Officer Richardson fired two
shots in rapid succession, each striking Blough. [DE
55-9, Richardson Depo. at 693]. Blough said “you shot
me” and fell face down in the grass. [DE 55-5, Reich
Depo. at 617]. Officer McMillen also fired his weapon
but missed Blough. [DE 55-10, McMillen Depo. at
776–77]. Officers Richardson and McMillen
administered first aid, but Blough died shortly
thereafter on the way to Hardin Memorial Hospital.
Id. at 777.
B. Procedural Background
Reich and Jamie Nelson, as Personal
Representative of Blough’s Estate, filed this action
alleging Fourth and Eighth Amendment violations
under 42 U.S.C. § 1983, as well as state law tort
claims for negligence; battery; negligent hiring,
training, and supervision; negligent infliction of
emotional distress; and outrage, also known as
intentional infliction of emotional distress. [DE 35 at
222–26]. Plaintiffs then filed a Motion to substitute
moments before the shooting. [DE 55-9, Richardson Depo. at
704].
3
There is disagreement about whether Blough continued to
step toward Officer Richardson or turned in the other direction
the moment before he was shot. Officer Richardson and three
independent eye witnesses testified that Blough continued
toward Officer Richardson with the knife in a stabbing position.
[DE 55-9, Richardson Depo. at 714; DE 55-11, Howlett Aff. at
823; DE 55-14, D. Mills Aff. at 829; DE 55-17, H. Mills Statement
at 839]. But one of those same witnesses, Helen Howlett, initially
wrote a statement for KSP claiming that Blough was trying to
get away from the officers when he was shot. [DE 61-10, Howlett
KSP Stat. at 2262]. Reich also testified that Blough took “one or
two steps” away from the police. [DE 55-5, Reich Depo. at 615].

48a
Elise Davidson for Jamie Nelson as Personal
Representative of Blough’s Estate [DE 22], which the
Court granted [DE 30]. Later, the Court granted an
Agreed Order of Partial Dismissal for all claims
against Tracy Shiller, Chief of the Elizabethtown
Police Department. [DE 38].
Discovery concluded on February 1, 2018, and
Defendants now move for summary judgment under
Federal Rule of Civil Procedure 56. [DE 55]. Plaintiffs
filed a Response that includes an affidavit attested to
by Reich. [DE 61]. The affidavit includes new
assertions that Defendants claim contradict Reich’s
earlier deposition testimony, and Defendants argue in
their Reply that the Court should therefore disregard
the affidavit. [DE 68, Reply MSJ at 3915]. Oral
argument on the Motion for Summary Judgment was
held on October 30, 2018. [DE 76].
LEGAL STANDARD
Summary judgment is required when “there is no
genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a). The moving party bears the
burden of specifying the basis for its motion and
demonstrating the absence of a genuine issue of
material fact. Celotex Corp. v. Catrett, 477 U.S. 317,
322 (1986). Once the moving party satisfies this
burden, the nonmoving party must produce specific
facts demonstrating a material issue of fact for trial.
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 247–48
(1986). “Factual differences are not considered
material unless the differences are such that a
reasonable jury could find for the party contesting the
summary judgment motion.” Bell v. City of E.
Cleveland, 125 F.3d 855 (6th Cir. 1997) (citing Liberty
Lobby, 477 U.S. at 252).

49a
A district court considering a motion for summary
judgment may not weigh evidence or make credibility
determinations. Daugherty v. Sajar Plastics, Inc., 544
F.3d 696, 702 (6th Cir. 2008); Adams v. Metiva, 31
F.3d 375, 379 (6th Cir. 1994). The Court must view
the evidence and draw all reasonable inferences in a
light most favorable to the nonmoving party. Williams
v. Int’l Paper Co., 227 F.3d 706, 710 (6th Cir. 2000).
But the nonmoving party must do more than show
some “metaphysical doubt as to the material facts.”
Matsushita Elec. Indus. Co., Ltd. v. Zenith Radio
Corp., 475 U.S. 574, 586 (1986); see also Loyd v. Saint
Joseph Mercy Oakland, 766 F.3d 580, 588 (6th Cir.
2014). Instead, the nonmoving party must present
specific facts showing that a genuine factual issue
exists by “citing to particular parts of materials in the
record” or by “showing that the materials cited do not
establish the absence… of a genuine dispute[.]”
Shreve v. Franklin Cty., Ohio, 743 F.3d 126, 136 (6th
Cir. 2014). “The mere existence of a scintilla of
evidence in support of the [nonmoving party’s]
position will be insufficient; there must be evidence on
which the jury could reasonably find for the
[nonmoving party].” Liberty Lobby, 477 U.S. at 252.
DISCUSSION
A. Reich’s Affidavit Filed in Response to
Defendants’ Motion for Summary Judgment
First, the Court must decide whether it is proper
to accept Reich’s new affidavit filed as part of
Plaintiffs’ Response to Defendants’ Motion for
Summary Judgment. [DE 61-15, Reich Aff.].
Defendants argue in their Reply that the Court should
disregard the affidavit because it includes new
assertions that Defendants claim contradict Reich’s
earlier deposition testimony. [DE 68, Reply MSJ at
3915].

50a
Generally, “[a] party cannot create a factual
dispute by filing an affidavit, after a motion for
summary judgment has been made, which contradicts
earlier testimony.” Dotson v. U.S. Postal Serv., 977
F.2d 976, 978 (6th Cir. 1992) (per curiam) (citing
Gagne v. Nw. Nat. Ins. Co., 881 F.2d 309, 315 (6th Cir.
1989)); see also Reid v. Sears, Roebuck & Co., 790 F.2d
453, 460 (6th Cir. 1986); Biechele v. Cedar Point, Inc.,
747 F.2d 209, 215 (6th Cir. 1984). “If a witness, who
has knowledge of a fact, is questioned during her
deposition about that fact, she is required to ‘bring it
out at the deposition and [cannot] contradict her
testimony in a subsequent affidavit.’” Holt v. Olmsted
Township Bd. of Trs., 43 F. Supp. 2d 812, 817 (N.D.
Ohio 1998) (quoting Reid, 790 F.2d at 460). Put
differently, “a party cannot avoid summary judgment
through the introduction of self-serving affidavits that
contradict prior sworn testimony.” U.S. ex rel.
Compton v. Midwest Specialties, Inc., 142 F.3d 296,
303 (6th Cir. 1998). Numerous courts have declared
that self-serving affidavits without factual support in
the record will not defeat a motion for summary Case
3:16-cv-00429-RGJ-CHL judgment. See, e.g., Devine v.
Jefferson Cnty., Kentucky, 186 F. Supp. 2d 742, 744
(W.D. Ky. 2001); Jadco Enterprises, Inc. v. Fannon,
991 F. Supp. 2d 947, 955 (E.D. Ky. 2014); Syvongxay
v. Henderson, 147 F. Supp. 2d 854, 859 (N.D. Ohio
2001); Wolfe v. Village of Brice, 37 F. Supp. 2d 1021,
1026 (S.D. Ohio 1999) (“Self-serving affidavits, alone,
are not enough to create an issue of fact sufficient to
survive summary judgment.”) (citing Liberty Lobby,
477 U.S. at 251; Copeland v. Machulis, 57 F.3d 476,
479 (6th Cir. 1995)). Such affidavits fail to create an
issue of material fact. Lanier v. Bryant, 332 F.3d 999,
1004 (6th Cir. 2003). The affidavit need not explicitly
contradict prior testimony for the Court to disregard
it; it must only interject factual assertions not

51a
disclosed during discovery. Myers v. Huron Cty., Ohio,
No. 3:06-CV-3117, 2008 WL 271657, at *2 (N.D. Ohio
Jan. 31, 2008), aff’d, 307 F. App’x 917 (6th Cir. 2009).
When asked at her deposition to describe the
positions of Blough and the officers during the
shooting, Reich testified that she was “not sure” and
did not “want to guess about it.” [DE 55-5, Reich Depo.
at 614]. But nearly two years after the shooting and
explicitly in response to Defendants’ Motion for
Summary Judgment, Reich and her attorneys
attempted to recreate the scene in detail. [DE 61-15,
Reich Aff. at 2565]. The affidavit includes
measurements, photographs, and notes that position
the parties based on Reich’s current recollection of the
events. Id. Among other things, the affidavit places
the distance between Blough and Officer Richardson
at greater than 25 feet—nearly double the distance
that other witnesses testified to shortly after the
shooting. [DE 61-15, Reich Aff. at 2567]. There is no
other support in the record for this factual assertion.
Defendants argue that the Court should exclude
this new testimony on several grounds. First, they
claim that there is no newly-discovered evidence or
compelling reason that merits the testimony’s
consideration. [DE 68 at 3905]. Second, they note that
this information was not produced to Defendants prior
to the close of discovery, that all expert discovery is
now closed, and all liability experts have been
deposed. Id. Defendants argue that they therefore
have no opportunity to cross-examine Reich about
these new assertions. Id. Finally, Defendants
question the timing of the affidavit, labeling it
“suspicious and self-serving.” Id. at 3904, n. 1.
Reich previously testified that she did not know
the distance between Blough and Officer Richardson
during the shooting, and Plaintiffs fail to explain why

52a
they waited until after the close of discovery to
attempt to recreate the scene. This is improper. See
Powell-Pickett v. A.K. Steel Corp., 549 F. App’x 347,
353 (6th Cir. 2013) (“Because [the plaintiff] was asked
specific questions about, yet denied knowledge of, the
material aspects of her case, the material allegations
in her affidavit directly contradict her deposition.”);
White v. Baptist Mem’l Health Care Corp., 699 F.3d
869, 877 (6th Cir. 2012) (noting the rule is that a party
opposing summary judgment with an affidavit that
contradicts her earlier deposition must explain why
she disagrees with herself). Plaintiffs had access to
the same factual record as Defendants. If Reich
remembered the distance between the parties after
her deposition and after reading others’ testimony,
she was required to make this assertion before
discovery closed and to update her prior testimony.
See Fed. R. Civ. P. 37; Myers, No. 3:06-CV-3117, 2008
WL 271657, at *2. Instead, she waited until after
discovery closed and responded to Defendants’ Motion
with an affidavit that aims to create a factual issue for
trial. Powell-Pickett, 549 F. App’x at 353 (“A party
may neither duck her deposition, nor hold her cards
in anticipation of later advantage.”) “If a party who
has been examined at length on deposition could raise
an issue of fact simply by submitting an affidavit
contradicting his own prior testimony, this would
greatly diminish the utility of summary judgment as
a procedure for screening out sham issues of fact.”
Reid v. Sears, Roebuck & Co., 790 F.2d 453, 460 (6th
Cir. 1986) (citation omitted). Accordingly, the Court
declines to consider these new contradictory
assertions in ruling on the Motion for Summary
Judgment. 4
Even if the Court accepted Reich’s affidavit, her assertions
about the distance of the parties would not change the Court’s

4

53a
B. Section 1983 Claims
Plaintiffs allege that Defendants’ conduct
constituted unnecessary and unwarranted lethal force
in violation of the Fourth and Eighth Amendments,
entitling them to damages under 42 U.S.C. § 1983.
[DE 35 at 222]. “[Section] 1983 is not itself a source of
substantive rights, but merely provides a method for
vindicating federal rights elsewhere conferred.”
Graham v. Connor, 490 U.S. 386, 393–94 (1989)
(internal quotation omitted). To state a claim under
Section 1983, “a plaintiff must set forth facts that,
when construed favorably, establish (1) the
deprivation of a right secured by the Constitution or
laws of the United States (2) caused by a person acting
under the color of state law.” Burley v. Gagacki, 729
F.3d 610, 619 (6th Cir. 2013).
Defendants maintain that Blough was not
deprived of a constitutional right and assert the
ruling. Reich puts the distance between Blough and Officer
Richardson at 25 feet 6 inches—more than double the estimates
made by third-party witnesses shortly after the shooting. [DE 61
at 16–17]. Even so, the officers could still reasonably believe that
Blough was a danger to themselves and other parties on the
scene, including the 200 day-camp children at nearby Severns
Valley Baptist Church, concerned residents watching the scene,
and Reich herself. The Sixth Circuit has never required a
particular distance between a weapon-wielding man and
potential victims for an officer to reasonably believe that people
are in serious physical danger. Stevens-Rucker v. City of
Columbus, OH, 739 F. App’x 834, 842–43 (6th Cir. 2018) (finding
that an officer behaved reasonably when he shot a fleeing suspect
armed with a knife from twenty-five feet away). As discussed
later, the relevant fact-intensive inquiry is whether, considering
the totality of the circumstances, a reasonable officer would
consider the man a serious physical threat. Chappell v. City of
Cleveland, 585 F.3d 901, 911 (6th Cir. 2009). While the distance
between the parties is relevant to this inquiry, it is not
dispositive in this case.

54a
affirmative defense of qualified immunity. “Qualified
immunity protects government officials performing
discretionary functions unless their conduct violates a
clearly established statutory or constitutional right of
which a reasonable person in the official’s position
would have known.” Silberstein v. City of Dayton, 440
F.3d 306, 311 (6th Cir. 2006). It “provides ample
protection to all but the plainly incompetent or those
who knowingly violate the law.” Malley v. Briggs, 475
U.S. 335, 341 (1986). Thus, law enforcement’s conduct
is not actionable if they are exercising discretion and
their determinations are reasonable. Jeffers v.
Heavrin, 10 F.3d 380, 381 (6th Cir. 1993).
When advanced by a defendant, qualified
immunity is a threshold question of law appropriately
determined on a motion for summary judgment.
Harlow v. Fitzgerald, 457 U.S. 800 (1983). “Because
qualified immunity is ‘an immunity from suit rather
than a mere defense to liability… it is effectively lost
if a case is erroneously permitted to go to trial.’”
Pearson v. Callahan, 555 U.S. 223, 231 (2009)
(quoting Mitchell v. Forsyth, 472 U.S. 511, 526 (1985)).
Once a defendant raises the defense, the plaintiff
bears the burden of showing that it does not apply.
Johnson v Moseley, 790 F.3d 649 (6th Cir. 2015).
The Supreme Court requires courts to follow a
two-pronged approach when resolving questions of
qualified immunity. First, a court must decide
whether a plaintiff has presented sufficient facts that
violation of a constitutional right has occurred.
Pearson, 555 U.S. at 232. Second, a court must decide
whether the right at issue was “clearly established” at
the time of the alleged misconduct. Id. Thus, qualified
immunity applies unless the official’s conduct violates
a clearly established constitutional right. Id. (citing
Anderson v. Creighton, 483 U.S. 635, 640 (1987)).

55a
Courts have discretion to decide the order in which to
engage these two prongs “in light of the circumstances
in the particular case at hand.” Id. at 236.
1. Violation of a Constitutional Right
a. Fourth Amendment
First, Plaintiffs allege that Defendants violated
Blough’s Fourth Amendment rights because Officers
Richardson and McMillen deployed excessive force in
seizing Blough. [DE 35 at 217]. The Supreme Court
has held that claims brought under Section 1983
involving law enforcement’s use of deadly force are
properly analyzed under the Fourth Amendment,
which guarantees citizens the right to be secure in
their persons against unreasonable seizures. Graham,
490 U.S. at 394. The “reasonableness” of a particular
seizure depends on both when it is made and how it is
carried out. Id. at 395 (citing Tennessee v. Garner, 471
U.S. 1, 7–8 (1985)). It is clear that “[t]he intrusiveness
of a seizure by means of deadly force is unmatched.”
Garner, 471 U.S. at 9. “Therefore, only in rare
instances may an officer seize a suspect by use of
deadly force.” Whitlow v. City of Louisville, 39 F. App’x
297, 303 (6th Cir. 2002) (citing Garner, 471 U.S. at 9).
The Fourth Amendment’s reasonableness test “is
not capable of precise definition or mechanical
application.” Bell v. Wolfish, 441 U.S. 520, 559 (1979).
Thus, its application requires careful attention to the
facts and circumstances of each case, including “the
severity of the crime at issue, whether the suspect
poses an immediate threat to the safety of the officers
or others, and whether he is actively resisting arrest
or attempting to evade arrest by flight.” Graham, 490
U.S. at 396. “The ‘reasonableness’ of a particular use
of force must be judged from the perspective of a
reasonable officer on the scene, rather than with the
20/20 vision of hindsight.” Id.; see also Smith v.

56a
Freland, 954 F.2d 343, 347 (6th Cir. 1992) (noting that
courts “must avoid substituting [their] personal
notions of proper police procedure for the
instantaneous decision of the officer at the scene…
[and] never allow the theoretical, sanitized world of
their imagination to replace the dangerous and
complex world that policemen face every day.”).
When analyzing excessive force claims, the Sixth
Circuit has adopted the view of doing so in segments.
Dickerson v. McClellan, 101 F.3d 1151, 1161 (6th Cir.
1996) (holding that review of excessive force claims
should be limited to officers’ actions in the moments
preceding the shooting). This “somewhat narrow
interpretation of the Supreme Court’s mandate that
courts look to the totality of the circumstances in
determining if excessive force was used,” Claybrook v.
Birchwell, 274 F.3d 1098, 1103 (6th Cir. 2001), is
“long-standing practice” in the Sixth Circuit, even
though it may lead to more excessive force cases being
decided on summary judgment. Rucinski v. Cty. of
Oakland, 655 F. App’x 338, 342 (6th Cir. 2016).
In this case, then, the relevant inquiry is whether
Officers Richardson and McMillen acted reasonably
during the final encounter with Blough on the
resident’s front yard. The undisputed facts show that
during the final encounter, Reich approached Blough
in the front yard and asked him to put down the knife
and enter her vehicle. [DE 55-5, Reich Depo. at 613].
Blough refused and moved toward Officer Richardson
at a fast pace. [DE 55-9, Richardson Depo. at 700–02].
Blough looked at Officer Richardson with the knife in
a stabbing position, stopped, touched Reich, and told
her to “get the fu** back.” Id. at 700, 704; [DE 55-10,
McMillen Depo. at 768]. Officer Richardson told
Blough to drop the knife. [DE 55-5, Reich Depo. at
617]. Blough refused and said, “you’re going to have to

57a
kill me motherf**ker.” Id. at 615. Officers Richardson
and McMillen then fired at Blough, with two of Officer
Richardson’s bullets striking and eventually killing
Blough. [DE 55-9, Richardson Depo. at 693; DE 55-10,
McMillen Depo. at 776–77].
Analyzing these facts under the Graham factors,
Officers Richardson and McMillen behaved
reasonably during the encounter. First, Blough’s
crimes were serious. He was wandering around the
subdivision, acting erratic, standing on a resident’s
yard armed with a knife, alarming nearby residents,
and ignoring Officer Richardson’s commands to drop
the knife. [DE 55-9, Richardson Depo. at 693]. Second,
Blough presented an urgent and realistic threat to
both Reich and the officers. He responded to Reich’s
pleas by touching her and telling her to “get the fu**
back.” And when commanded by Officer Richardson to
drop the knife, Blough strode toward the officer and
said that Officer Richardson would have to kill him.
Both officers could reasonably perceive this behavior
as a threat to themselves and Reich. Finally, Blough
was clearly resisting Case arrest—or, at a minimum,
resisting Officer Richardson’s command to drop the
knife. Thus, the totality of the circumstances justified
the officers’ seizure of Blough, and the officers’
response was reasonable under the circumstances.
Goodwin v. City of Painesville, 781 F.3d 314, 321 (6th
Cir. 2015) (“Ultimately, the court must determine
whether the totality of the circumstances justifies a
particular sort of seizure.”) (citation omitted).
Further, Plaintiffs’ argument that Defendants
should have taken greater care due to Blough’s mental
illnesses is without merit. In Rucinski, the plaintiff
was bipolar, schizophrenic, and paranoid. 655 F.
App’x at 339. When his girlfriend refused to get him
cigarettes, the plaintiff yelled, pulled a knife from his

58a
pocket, and opened the blade. Id. His girlfriend called
911 and warned the dispatch operator that the
plaintiff was “schizophrenic and was having a
breakdown,” had a knife, and was alone in the garage.
Id. Three deputies arrived to do a welfare check. When
one of the officers engaged the plaintiff, the plaintiff
again pulled out and opened his knife, said “bring it
on” or “here we go,” and began walking toward the
officer. Id. The plaintiff refused to comply with
repeated commands to drop the weapon, so one officer
fired her taser while the other discharged her pistol,
striking and killing the plaintiff. Id. The Sixth Circuit
held that the plaintiff’s mental illness had no bearing
on whether the officers behaved reasonably, noting
that the plaintiff identified “no case law restricting an
officer’s ability to use deadly force when she has
probable cause to believe that a mentally ill person
poses an imminent threat of serious physical harm to
her person.” Id. at 342 (citing Sanders v. City of
Minneapolis, 474 F.3d 523, 527 (8th Cir. 2007); Bates
ex rel. Johns v. Chesterfield County, Va., 216 F.3d 367,
372 (4th Cir. 2000)).
Here, as in Rucinski, Blough had a long history of
mental health issues. He suffered from chronic
schizophrenia, paranoia, depression, and bipolar
disorder. [DE 55-7, Comm. Record]. He was also a
chronic methamphetamine and benzodiazepine user.
Id. He had reported three previous suicide attempts,
including one attempt five days prior to the shooting.
Id. But, like in Rucinski, Blough can point to no case
law restricting an officer’s use of force when a
mentally ill person poses an imminent threat.
Rucinski makes clear that the relevant inquiry is
whether a person poses a threat to law enforcement,
not whether that person is mentally ill. Other circuits
have held similarly. See Sanders v. City of

59a
Minneapolis, Minnesota, 474 F.3d 523, 527 (8th Cir.
2007) (“The fact that [the decedent] may have been
experiencing a bipolar episode does not change the
fact that he posed a deadly threat against the police
officers.”); Bates ex rel. Johns v. Chesterfield Cty., Va.,
216 F.3d 367, 372 (4th Cir. 2000) (“Knowledge of a
person’s disability simply cannot foreclose officers
from protecting themselves, the disabled person, and
the general public when faced with threatening
conduct by the disabled individual.”); Menuel v. City
of Atlanta, 25 F.3d 990, 996 (11th Cir. 1994)
(upholding use of deadly force to apprehend a
mentally ill man who had a knife and was hiding
behind a door). Thus, Blough’s mental illness had no
bearing on whether the officers behaved reasonably
and is irrelevant to Plaintiffs’ Fourth Amendment
claim.
Next, Plaintiffs argue that the Graham factors do
not apply because Blough had not committed a crime.
[DE 61 at 1707, 1717]. This is incorrect. As
Defendants point out, Blough’s actions at a minimum
amount to disorderly conduct and wanton
endangerment, among other crimes. [DE 68 at 3915].
The record also shows that Blough was, at a
minimum, trespassing on residents’ properties and
resisting arrest.
But even if the Graham three-factor test did not
apply, Plaintiffs still fail to rebut the defense of
qualified immunity under the standard announced in
Estate of Hill by Hill v. Miracle, 853 F.3d 306, 314 (6th
Cir. 2017). In that case, the court developed “a more
tailored set of factors [to] be considered in the medicalemergency context, always aimed towards the
ultimate goal of determining ‘whether the officers’
actions are objectively reasonable in light of the facts
and circumstances confronting them.’” Id. (quoting

60a
Graham, 490 U.S. at 397). “Where a situation does not
fit within the Graham test because the person in
question has not committed a crime, is not resisting
arrest, and is not directly threatening the officer, the
court should ask:
(1) Was the person experiencing a medical
emergency that rendered him incapable of
making
a
rational
decision
under
circumstances that posed an immediate
threat of serious harm to himself or others?
(2) Was some degree of force reasonably
necessary to ameliorate the immediate
threat?
(3) Was the force used more than reasonably
necessary under the circumstances (i.e., was it
excessive)?
If the answers to the first two questions are ‘yes,’ and
the answer to the third question is ‘no,’ then the officer
is entitled to qualified immunity.” Id.
Here, then, even if Plaintiffs are correct that
Blough was not committing a crime and was
experiencing a mental-health emergency that
rendered him incapable of acting rationally under the
circumstances, they would still need to show that
force was not reasonably necessary to address the
threat or that the force actually used was more than
reasonably necessary. They fail to do so.
First, Blough posed an immediate threat of
serious harm to the officers and the community. He
was wandering around a residential community with
a knife in his dominant hand and attempting to enter
private residences. Community residents felt
threatened by his erratic behavior. [See DE 55-11,
Howlett Aff. at 823; DE 55-12, Pils Statem. at 825; DE

61a
55-13, Ray Aff. at 826; DE 55-14, D. Mills Aff. at 828].
Second, some force was reasonably necessary to
ameliorate that threat because Blough refused to drop
the knife, submit to police, or reenter Reich’s vehicle.
Finally, for the reasons described above, Officers
Richardson’s and McMillen’s use of deadly force was
not more than reasonably necessary under the
circumstances. Thus, even under the test espoused in
Estate of Hill by Hill v. Miracle, Plaintiffs fail to show
a violation of Blough’s Fourth Amendment rights.
b. Eighth Amendment
Next, Plaintiffs allege that Defendants’ conduct
violated the Eighth Amendment’s prohibition on cruel
and unusual punishment. [DE 35 at 222]. The
Supreme Court has repeatedly held that the Eighth
Amendment protects only convicted persons from
excessive force. See Whitley v. Albers, 475 U.S. 312,
318 (1986); Ingraham v. Wright, 430 U.S. 651, 670
(1977); City of Revere v. Massachusetts Gen. Hosp.,
463 U.S. 239, 243 (1983); Bell v. Wolfish, 441 U.S. 520,
535 (1979); see also Burgess v. Fischer, 735 F.3d 462,
472 (6th Cir. 2013) (“The Fourth Amendment's
prohibition against unreasonable seizures bars
excessive force against free citizens… while the
Eighth Amendment’s ban on cruel and unusual
punishment bars excessive force against convicted
persons,” and the Fourteenth Amendment’s Due
Process Clause applies when the citizen does not fall
into either category) (internal citations omitted).
Plaintiffs have neither shown nor attempted to
show that Blough was convicted of a crime at the time
of the incident. To the contrary, they argue that
Blough “had not committed and was not in the process
of committing a crime at the time of the seizure.” [DE
61 at 1729]. Further, Plaintiffs stated at the October
30, 2018 hearing that they no longer intend to pursue

62a
an Eighth Amendment claim. [DE 76, Oct. 30, 2018
Tr., 4008:16–20]. The Eighth Amendment claim is
therefore moot.
2. Clearly Established Right
Even had Plaintiffs presented sufficient facts that
Defendants violated Blough’s rights, Plaintiffs still
fail to show that the right at issue was “clearly
established” at the time of the incident. As noted
above, qualified immunity applies unless the official’s
conduct violates a clearly established right. Pearson,
555 U.S. at 232. The law must be sufficiently clear
that every “reasonable official would have understood
that what he is doing violates that right.” Ashcroft v.
al-Kidd, 563 U.S. 731 (2011) (citing Anderson v.
Creighton, 483 U.S. 635, 640 (1987)). “In other words,
existing precedent must have placed the statutory or
constitutional question beyond debate.” Reichle v.
Howards, 566 U.S. 658, 664 (2012) (internal citation
and quotation marks omitted). Specificity is
particularly “important in the Fourth Amendment
context, where the Court has recognized that it is
sometimes difficult for an officer to determine how the
relevant legal doctrine, here excessive force, will apply
to the factual situation the officer confronts.” Kisela v.
Hughes, 138 S.Ct. 1148, 1152 (2018) (per curiam)
(internal citation and quotation marks omitted). And
lower courts should not read prior decisions too
broadly in deciding whether a new set of facts is
governed by clearly established law. Id. at 1154 (citing
City & Cty. of San Francisco, Calif. v. Sheehan, 135 S.
Ct. 1765 (2015)). “The critical question is whether the
case law has put the officer on notice that his conduct
is clearly unlawful.” Reichle, 566 U.S. at 664.
Here, there are no cases directly on point.
However, similar cases fail to show that Defendants
violated a clearly established right. In fact, those

63a
cases support Defendants’ contention that they are
entitled to qualified immunity. As discussed above,
the court in Rucinski held that there was no violation
when officers shot and killed a man armed with a
knife when he walked toward the officers and said,
“bring it on” or “here we go.” 655 F. App’x at 339.
Specifically, the court found that it was reasonable for
the officers to believe that they and others were in
danger, requiring a split-second decision. Id. at 341. It
also noted that this decision was in line with prior
Sixth Circuit precedent in similar cases. See Chappell
v. City of Cleveland, 585 F.3d 901, 911 (6th Cir. 2009)
(holding that, where detectives shot and killed a
fifteen-year-old boy after he approached them with a
knife over his head, the detectives’ use of force was
reasonable as a matter of law); Rhodes v. McDannel,
945 F.2d 117, 118 (6th Cir. 1991) (holding that an
officer acted reasonably as a matter of law when he
shot and killed a suspect brandishing a knife after the
suspect did not comply with commands to drop the
knife).
As in Rucinski, Chappell, and Rhodes, the officers
here were confronted with a person brandishing a
knife. The officers reasonably perceived Blough as a
threat and felt compelled to make a split-second
decision. Even if Officers Richardson and McMillen
were mistaken in their belief that Blough was a
threat, Sixth Circuit law makes clear that “[q]ualified
immunity applies irrespective of whether the official’s
error was a mistake of law or a mistake of fact, or a
mistake based on mixed questions of law and fact.”
Chappell, 585 F.3d at 907 (citing Pearson, 555 U.S. at
231). Accordingly, it cannot be said that Officers
Richardson and McMillen were put on notice that
their conduct was unlawful or violated a clearly
established right under Sixth Circuit law.

64a
3. Mo nell Claim
Plaintiffs assert that the City is liable for Officers
Richardson’s and McMillen’s actions because it failed
to “employ qualified persons for positions of
authority,” “properly or conscientiously train and
supervise the conduct of such persons after their
employment,” and “promulgate appropriate operating
policies and procedures” to protect Blough’s
constitutional rights. [DE 35 at 222]. To state a claim
against a city or a county under § 1983, “a plaintiff
must show that his injury was caused by an
unconstitutional ‘policy’ or ‘custom’ of the
municipality.” Stemler, 126 F.3d at 865 (citing Monell
v. New York City Dept. of Social Servs., 436 U.S. 658
(1978)); see also City of Canton, Ohio v. Harris, 489
U.S. 378, 385 (1989).
With no underlying constitutional violation,
Plaintiffs cannot succeed on claims for supervisory or
municipal liability. McQueen v. Beecher Cmty. Schs.,
433 F.3d 460, 471 (6th Cir. 2006). Further, Plaintiffs
clarified at the October 30, 2018 hearing that they do
not intend to pursue a Monell claim. [DE 76, Oct. 30,
2018 Tr., 4023:17–22]. Plaintiffs’ Monell claim is thus
moot.
C. State-Law Claims
1. General Negligence, Negligent Infliction
of Emotional Distress, and Wrongful
Death
Plaintiffs bring three related state-law negligence
claims. First, Plaintiffs claim that Officers Richardson
and McMillen were negligent in their treatment of
Blough. [DE 35 at 222–23]. Second, Plaintiffs claim
that Defendants’ actions constitute negligent
infliction of emotional distress for Reich. [Id. at 225].
Finally, Plaintiffs allege that because of Defendants’

65a
negligence, Blough’s estate is entitled to wrongful
death damages under Ky Rev. Stat. Ann. § 411.130.
Id.
Defendants respond that they are entitled
qualified official immunity under Kentucky law. [DE
55 at 538]. “Qualified official immunity applies to the
negligent performance by a public officer or employee
of (1) discretionary acts or functions, i.e., those
involving the exercise of discretion and judgment, or
personal deliberation, decision, and judgment; (2) in
good faith; and (3) within the scope of the employee’s
authority.” Yanero v. Davis, 65 S.W.3d 510, 521–22
(Ky. 2001). But “an officer or employee is afforded no
immunity from tort liability for the negligent
performance of a ministerial act, i.e., one that requires
only obedience to the orders of others, or when the
officer’s duty is absolute, certain, and imperative,
involving merely execution of a specific act arising
from fixed and designated facts.” Id. at 522. Thus,
qualified immunity depends “on the function
performed” and whether the official acted in “good
faith.” Id. at 521.
In this case, Officers Richardson’s and McMillen’s
actions were clearly discretionary. See Nichols v.
Bourbon Cty. Sheriff’s Dep’t, 26 F. Supp. 3d 634, 642
(E.D. Ky. 2014) (holding that determination of the
amount of force required to effect an arrest is a
discretionary act within the scope of an officer’s
authority); Woosley v. City of Paris, 591 F. Supp. 2d
913, 922 (E.D. Ky. 2008) (holding that a police officer’s
use of force is clearly a discretionary act within the
scope of his authority as a police officer); see also Lamb
v. Holmes, 162 S.W.3d 902, 908 (Ky. 2005) (finding
that school officials’ search of students was
discretionary because there was no policy directly on
point and the breadth of the search required judgment

66a
within the scope of the officials’ duties). As a result,
“the burden shifts to the Plaintiff ‘to establish by
direct or circumstantial evidence that the
discretionary act was not performed in good faith.’”
Nichols, 26 F. Supp. 3d at 642 (quoting Yanero, 65
S.W.3d at 523).
In Yanero, the Kentucky Supreme Court adopted
the United States Supreme Court’s definition of “bad
faith,” which has “both an objective and subjective
aspect”:
The objective element involves a presumptive
knowledge of and respect for “basic,
unquestioned constitutional rights.” Wood v.
Strickland, 420 U.S. 308, 322 (1975). The
subjective component refers to “permissible
intentions.” Id. Characteristically, the Court
has defined these elements by identifying the
circumstances in which qualified immunity
would not be available. Referring both to the
objective and subjective elements, we have
held that qualified immunity would be
defeated if an official “knew or reasonably
should have known that the action he took
within his sphere of official responsibility
would violate the constitutional rights of the
[plaintiff], or if he took the action with the
malicious intention to cause a deprivation of
constitutional rights or other injury…”
Yanero, 65 S.W.3d at 523 (citing Harlow, 457 U.S. at
815). “Thus, in the context of qualified official
immunity, ‘bad faith’ can be predicated on a violation
of a constitutional, statutory, or other clearly
established right which a person in the public
employee’s position presumptively would have known
was afforded to a person in the plaintiff's position, i.e.,
objective unreasonableness; or if the officer or

67a
employee willfully or maliciously intended to harm
the plaintiff or acted with a corrupt motive.” Id. Put
simply, “[i]f an officer ‘knew or reasonably should
have known that the action he took would violate a
[clearly established] right of the plaintiff,’ bad faith
may be found to exist.” Rowan Cty. v. Sloas, 201
S.W.3d 469, 485–86 (Ky. 2006) (quoting Yanero, 65
S.W.3d at 523).
Here, the Court has already determined that
Officers Richardson and McMillen behaved
objectively reasonable under the circumstances when
seizing Blough and did not violate a clearly
established right. There are thus no grounds to find
that the officers “willfully or maliciously intended to
harm the plaintiff,” “acted with a corrupt motive,” or
otherwise acted in bad faith. For these reasons,
Defendants are entitled to qualified official immunity
under Kentucky law, and Plaintiffs’ negligence claims
fails.
Plaintiffs’ wrongful death claim fails for similar
reasons. Under Kentucky law, if the death of a person
results from injury inflicted because of another’s
negligence, the deceased’s estate may recover
damages. Ky Rev. Stat. Ann. § 411.130. “A wrongfuldeath claim ‘is, at its core, a tort claim based upon
negligence.’” Gambrel v. Knox Cty., Kentucky, No. CV
17-184-DLB, 2018 WL 1457296, at *13 (E.D. Ky. Mar.
23, 2018) (quoting Patton v. Bickford, 529 S.W.3d 717,
729 (Ky. 2016)). Having found no evidence of
negligence and determined that Defendants are
thereby protected by qualified official immunity,
Plaintiffs are not entitled to wrongful-death damages.
See Whitlow, 39 F. App’x at 308.

68a
2. Negligent
Hiring,
Training,
and
Supervision
Similarly, Plaintiffs allege that Chief Schiller
failed to adequately hire, train, and supervise Officers
Richardson and McMillen. [DE 35 at 223]. As
previously noted, The Court granted an Agreed Order
of Partial Dismissal on all claims pertaining to Chief
Schiller on August 18, 2017 [DE 38]. Plaintiffs do not
allege that any of the other defendants failed to
adequately hire, train, and supervise Officers
Richardson and McMillen, so this claim is dismissed
in its entirety. 5
3. Common Law Battery
Plaintiffs also allege that Officers Richardson and
McMillen committed common law battery upon
Blough. [DE 35 at 223–24]. A battery is “any unlawful
touching of the person of another, either by the
aggressor himself, or by any substance set in motion
by him.” Richardson v. Bd. of Educ. of Jefferson Cty.
Kentucky, No. 3:04-CV-386R, 2006 WL 2726777, at
Plaintiffs’ claim would fail even if they did allege that other
defendants failed to adequately hire, train, and supervise. “If a
person has suffered no constitutional injury at the hands of the
individual police officer, the fact that the departmental
regulations might have authorized the use of constitutionally
excessive force is quite beside the point.” City of Los Angeles v.
Heller, 475 U.S. 796, 799 (1986). See also Whitlow, 39 F. App’x at
302 (“[I]f Whitlow suffered no constitutional violation, then
Plaintiff’s claims against Louisville and Hamilton alleging that
their lack of training and failure to supervise the individual
officers resulted in Decedent’s death, must fail. In other words,
Plaintiff's claims against the city are dependent upon the
existence of a constitutional violation by its officers.”); Scott v.
Clay Cnty., Tenn., 205 F.3d 867, 879 (6th Cir. 2000) (“[O]ur
conclusion that no officer-defendant had deprived the plaintiff of
any constitutional right a fortiori defeats the claim against the
County as well.”).
5

69a
*11 (W.D. Ky. Sept. 22, 2006) (citing Vitale v. Henchey,
24 S.W.3d 651, 657 (Ky. 2000)). If police action is
reasonable under Section 1983, a plaintiff cannot
succeed on a common law battery claim. Atwell v. Hart
Cty., Ky., 122 F. App’x 215, 219 (6th Cir. 2005) (citing
Fultz v. Whittaker, 261 F. Supp. 2d 767, 783 (W.D. Ky.
2003)). This Court has already determined that
Officers Richardson and McMillen acted reasonably
under the circumstances when seizing Blough. For
those same reasons, the battery claim must be
dismissed.
4. Outrage and Intentional Infliction of
Emotional Distress
Finally, Plaintiffs claim that “Defendants’
treatment of Mr. Blough and Ms. Reich was so beyond
the bounds of human decency that it exemplifies the
tort of outrage.” [DE 35 at 224]. Plaintiffs separately
allege intentional infliction of emotional distress upon
Reich. Id. at 224–25. Courts generally treat claims of
outrage and intentional infliction of emotional
distress interchangeably. Powell v. Cornett, No. 3:11CV-00628-H, 2013 WL 1703746, at *1 (W.D. Ky. Apr.
19, 2013) (citing Atwell, 122 F. App’x at 219). Under
Kentucky law, outrage and intentional infliction of
emotional distress are premised upon extreme and
outrageous conduct intentionally or recklessly
causing emotional distress. Atwell, 122 F. App’x at
219 (citing Craft v. Rice, 671 S.W.2d 247, 251 (Ky.
1984)). A plaintiff must prove that a defendant’s sole
intent was to cause extreme emotional distress to the
plaintiff. Rigazio v. Archdiocese of Louisville, 853
S.W.2d 295 (Ky. App. 1993) (holding that boys
sexually abused by priests had no claim for outrage
because the priests molested them to satisfy their own
sexual appetites, not to inflict harm on the boys).

70a
In analyzing the claims brought under § 1983, the
Court has already concluded that the actions taken by
Officers Richardson and McMillen were objectively
reasonable in light of Blough’s noncompliance and
belligerence. Accordingly, his state-law claims for
outrage and intentional infliction of emotional
distress must similarly be dismissed.
CONCLUSION
For the reasons set forth above, and being
otherwise sufficiently advised, THE COURT
HEREBY ORDERS that Defendants’ Motion for
Summary Judgment [DE 55] is GRANTED. This is a
final and appealable order.

71a
APPENDIX C

No. 18-6296
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
AMANDA N. REICH; ELISE
DAVIDSON, SUCCESSOR
ADMINISTRATRIX OF THE ESTATE
OF JOSHUA STEVEN BLOUGH,
Plaintiffs-Appellants,
v.
CITY OF ELIZABETHTOWN,
KENTUCKY; MATTHEW McMILLEN;
SCOTT RICHARDSON,
Defendants-Appellees.

BEFORE:
Circuit Judges.

)
)
)
)
)
)
)
)
)
)
)
)

ORDER

MOORE, COOK, and THAPAR,

The court received a petition for rehearing en
banc. The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original
submission and decision of the case. The petition then
was circulated to the full court. No judge has
requested a vote on the suggestion for rehearing en
banc.
Therefore, the petition is denied. Judge Moore
would grant rehearing for the reasons stated in her
dissent.
ENTERED BY ORDER OF THE COURT

(Handwritten signature)
Deborah S. Hunt, Clerk

72a
APPENDIX D

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
LOUISVILLE DIVISION
CIVIL ACTION NO: 3:16-CV-429-CRS
ELISE DAVIDSON,
Administrator of the
Estate of Joshua Steven Blough,
ET AL
v.

PLAINTIFFS

AFFIDAVIT OF AMANDA REICH

CITY OF ELIZABETHTOWN,
KENTUCKY, ET AL

DEFENDANTS

Comes now the Affiant, Amanda Reich, after
being duly sworn, and states as follows:
1. That I am a plaintiff in the above referenced civil
action.
2. That I am an eyewitness to the events of July 7,
2015 which form the subject matter of this civil action
and which occurred at and adjacent to the intersection
of 100 Fontaine Drive and Burr Oak Court,
Elizabethtown, Kentucky and, as such, I have
personal knowledge of what occurred.
3. That since July 7, 2015 I did not return to the scene
of the incident due to the severe emotional and mental
trauma I suffered witnessing the shooting death of my
fiancé, Joshua Blough. I could not bear the anxiety it
would cause to return to the scene. In fact, since the·
incident, on numerous occasions, I intentionally drove
around the neighborhood where the incident took
place to avoid the anxiety it would cause me to suffer.
On those occasions I drove out of the way to reach my
intended destination since the more direct route
would have taken me past the scene of the incident.

73a
4. However, on April 7, 2018 and April 12, 2018 I
returned to the scene of the incident with my
attorneys to assist with the prosecution of this civil
action and respond to a motion for summary judgment
filed by the defendants’ attorneys.
5. Upon returning to the scene on April 7, 2018, and
again on April 12, 2018, and with the aid of
photographs of the scene taken by Kentucky State
Police investigators (copies of which are attached
hereto and incorporated by reference in this
Affidavit), I was able to accurately recall where I was
positioned at the time Joshua Blough was shot. I was
also able to accurately recall where Joshua Blough
was positioned when he was first shot. I was also able
to accurately recall where Officer Richardson was
positioned when he fired his shots at Joshua Blough.
I was also able to accurately recall where Officer
McMillen was positioned when he fired his shot at
Joshua Blough.
6. I returned to the scene of the incident on April 12,
2018 with my attorneys, Matthew W. Stein, Rob
Astorino, Jr. and John A. Whatley, and at that time I
was of sound mind with a clear memory of the events
of July 7, 2015. I identified the location where each of
the four people involved, Joshua Blough, Officer
Richardson, Officer McMillen and myself, were
positioned when the shots were fired. An orange cone
was placed at each location of the position for each
person. Joshua Blough’s position was marked as cone
“A”. Officer Richardson’s position was marked as cone
“B”. Officer McMillen’s position was marked as cone
“C” and my position was marked as cone “D”.
Photographs were taken of the four cones from
various angles by John A. Whatley. These
photographs are attached hereto and incorporated by
reference in this Affidavit.

74a
7. I used a Channel Lock 100-foot tape measure and
accurately measured the distance between the
positions of Joshua Blough and Officer Richardson;
Joshua Blough and Officer McMillen; Joshua Blough
and Amanda Reich; Officer Richardson and Amanda
Reich; Officer Richardson and Officer McMillen; and,
Officer McMillen and Amanda Reich.
8. The measurements were taken from the middle of
each cone. I observed where each measurement began
and ended. John A. Whatley photographed each
measurement and I wrote down each measurement on
a separate piece of paper, which is attached hereto
and incorporated by reference in this Affidavit.
9. The following information is the result of my
memory, observations of KSP photographs, personal
observations of the scene and measurements taken at
the scene. This information is true and accurate to the
best of my knowledge and belief:
a. Distance between cone “A” Joshua Blough
and cone “B” Officer Richardson 25 feet, 6
inches.
b. Distance between cone “A” Joshua Blough
and cone “C” Officer McMillen 36 feet, 4
inches.
c. Distance between cone “A” Joshua Blough
and cone “D” Amanda Reich 34 feet, 6
inches.
d. Distance between cone “B” Officer
Richardson and cone “D” Amanda Reich 24
feet, 3 inches.
e. Distance between cone “B” Officer
Richardson and cone “C” Officer McMillen
33 feet, 5 inches.

75a
f. Distance between cone “C” Officer
McMillen and cone “D” Amanda Reich 57
feet, 3 inches.
a. Further Affiant sayeth naught.
(Handwritten signature)
AMANDA REICH
COMMONWEALTH OF KENTUCKY
COUNTY OF JEFFERSON

)
) SS
)

Subscribed, sworn, and acknowledged before
me by Amanda Reich, on April __13__, 2018.
(Handwritten signature)
NOTARY PUBLIC-STATE AT LARGE
My commission expires: February 1, 2020

Case 3:16-cv-00429-RGJ-CHL Document 63-3 Filed 04/23/18 Page 11 of 57 PageID #: 2975

76a

77a

Case 3:16-cv-00429-RGJ-CHL Document 63-3 Filed 04/23/18 Page 43 of 57 PageID #: 3007

Case 3:16-cv-00429-RGJ-CHL Document 63-3 Filed 04/23/18 Page 16 of 57 PageID #: 2980

78a

Case 3:16-cv-00429-RGJ-CHL Document 63-3 Filed 04/23/18 Page 17 of 57 PageID #: 2981

79a

Case 3:16-cv-00429-RGJ-CHL Document 63-3 Filed 04/23/18 Page 20 of 57 PageID #: 2984

80a

Case 3:16-cv-00429-RGJ-CHL Document 63-3 Filed 04/23/18 Page 21 of 57 PageID #: 2985

81a

